<html>
<title> - DEVELOPING A SKILLED WORKFORCE FOR A COMPETITIVE ECONOMY: REAUTHORIZING THE WORKFORCE INVESTMENT ACT</title>
<body><pre>[Senate Hearing 113-792]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-792
 
DEVELOPING A SKILLED WORKFORCE FOR A COMPETITIVE ECONOMY: REAUTHORIZING 
                      THE WORKFORCE INVESTMENT ACT

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING DEVELOPING A SKILLED WORKFORCE FOR A COMPETITIVE ECONOMY, 
       FOCUSING ON REAUTHORIZING THE ``WORKFORCE INVESTMENT ACT''

                               __________

                             JUNE 20, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and Pensions
 
 
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 
 
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
      
                     U.S. GOVERNMENT PUBLISHING OFFICE
                  
 20-039 PDF                   WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman
                       
BARBARA A. MIKULSKI, Maryland           LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont            RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania      JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina            RAND PAUL, Kentucky
AL FRANKEN, Minnesota                   ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado             PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island        LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin                MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut      TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                                   
                      Pamela Smith, Staff Director
        Lauren McFerran, Deputy Staff Director and Chief Counsel
               David P. Cleary, Republican Staff Director
               
               

                                  (ii)

  


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                        THURSDAY, JUNE 20, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     2
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     5
    Prepared statement...........................................     5
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     7
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    33
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    35
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    38
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    40
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    43

                               Witnesses

Mitchell, David L., Administrator, Iowa Vocational Rehabilitation 
  Services, Des Moines, IA.......................................     8
    Prepared statement...........................................    10
Partridge, Steven, President and CEO, Charlotte Works, Charlotte, 
  NC.............................................................    13
    Prepared statement...........................................    15
Rosenberg, Alan N., Vice President, Chief of Staff and Chief 
  Administrative Officer, Temple University Health System, 
  Philadelphia, PA...............................................    17
    Prepared statement...........................................    19
Smith, Beverly E., Assistant Commissioner and State Director for 
  Adult Education, Office of Adult Education, Technical College 
  System of Georgia, Atlanta, GA.................................    21
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Workforce Stakeholders Group Statement on Reforming Job 
      Training Programs in America...............................    47
    Response by David Mitchell to questions of:
        Senator Murray...........................................    53
        Senator Baldwin..........................................    54
        Senator Whitehouse.......................................    54
    Response by Steven Partridge to questions of:
        Senator Murray...........................................    55
        Senator Baldwin..........................................    56
        Senator Whitehouse.......................................    57
    Response by Alan N. Rosenberg to questions of:
        Senator Murray...........................................    57
        Senator Baldwin..........................................    59
        Senator Whitehouse.......................................    59
    Response by Beverly E. Smith to questions of:
        Senator Murray...........................................    60
        Senator Baldwin..........................................    62
        Senator Whitehouse.......................................    62



  


DEVELOPING A SKILLED WORKFORCE FOR A COMPETITIVE ECONOMY: REAUTHORIZING 
                      THE WORKFORCE INVESTMENT ACT

                              ----------                              


                        THURSDAY, JUNE 20, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:31 p.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Murray, Sanders, Casey, Franken, 
Whitehouse, Baldwin, Murphy, Alexander, Enzi, and Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. The Health, Education, Labor, and Pensions 
committee will come to order.
    Today's hearing will address a very important topic: how 
Federal policy can better support a skilled workforce through 
the reauthorization of the Workforce Investment Act.
    I am pleased to be joined by Senator Isakson--I hope 
Senator Murray will come shortly--who has been a tireless 
champion of reauthorizing this bill. I know that Senator 
Isakson has been working closely with Senator Murray, as they 
had before, to find a path forward on reauthorization, a goal 
we all share. I want to thank Senator Isakson and his staff, 
and Senator Murray and her staff, for their hard work on this 
important bill. I look forward to continuing to work with them 
in the coming weeks as we consider this reauthorization.
    I also want to publicly thank Senator Alexander for his 
partnership, with me and my staff, to update the Rehabilitation 
Act as a part of the committee's work on the Workforce 
Investment Act. We all share a commitment to helping 
individuals with disabilities achieve success in the labor 
market, and to improve outcomes for transition-age youth with 
disabilities.
    While the country continues to recover from one of the 
worst recessions, we know that everyone has not recovered at 
the same rate. Workers without post-secondary education or 
training have a harder time finding work than their 
counterparts who have that experience, or a post-secondary 
credential.
    Those without a high school diploma face the harsh reality 
of an unemployment rate of 11 percent, while the current 
unemployment rate for those with a college degree is 3.4 
percent, which is far below the national stated rate of 7.6 
percent. At the same time, the demand for post-secondary 
credentials is growing.
    A Georgetown University report tells us the Nation will 
need 22 million new college degrees by 2018, but that we will 
fall short by 3 million post-secondary credentials, and 4.7 
million post-secondary certificates. So it is clear that we 
need to work together to do all we can to help America's 
workers gain the skills they need to be successful in the labor 
market.
    I might add, individuals with disabilities continue to face 
multiple barriers to employment. Of the over 15 million adults 
with disabilities of working age, less than one-third are 
working; two-thirds of adults with disabilities of working age 
are not working. And the number is even lower for individuals 
with significant disabilities.
    We have to address this. And as we work on the 
reauthorization of the Rehabilitation Act in conjunction with 
the WIA reauthorization, we have sought to make changes to 
vocational rehabilitation that set high expectations for all 
people with disabilities; we strengthen VR's emphasis on 
competitive integrated employment; and we prioritize services 
for young people with disabilities as they enter the workforce 
for the first time through things like paid internships in 
private businesses while they are in school.
    I would close by saying that most decisions about how best 
to meet our workforce needs should be made at the State and 
local levels. That is why as we modernize WIA, we must ensure 
flexibility for local workforce systems to tailor their 
services to specific local and regional needs, and also to 
adapt to future changes in the labor market. All the while 
ensuring that the most vulnerable get the services they need.
    I look forward to hearing from our witnesses today about 
what works in the current system and what needs to be improved.
    I will yield to my good friend from Georgia, Senator 
Isakson, for his opening statement and then I will keep the 
record open for Senator Alexander and Senator Murray.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Chairman Harkin, thank you very much for 
your hearing today and your leadership on the Workforce 
Investment Act.
    It was 15 years ago in 1998 that Congress first passed the 
WIA Act. A lot has happened in 15 years. Unfortunately, we have 
not reauthorized the WIA Act in 15 years. I am glad to see the 
encouraging signs from Chairman Harkin and Ranking Member 
Alexander, recently, of their commitment to bring a WIA bill to 
the floor in a bipartisan effort, and try and get it done this 
year. And I remain committed, along with Patty Murray, my 
former chairman, now Bob Casey, our chairman of the 
subcommittee, to see to it that that happens.
    It appears to me that changes are desperately needed to be 
made to the current law. Governors and State workforce 
directors have told me they need Congress to streamline the 
flow of dollars from the Federal Government to their States, 
and to make the system more flexible, so they can respond to 
dynamic changes demanded by employers.
    Too often, I hear local workforce development leaders tell 
me, they see very little of the funding that is sent out from 
Washington make it down to their level because of the 
bureaucracy and the red tape. They are the ones at the 
frontlines of delivery and training, and yet, they still do not 
have enough funding for the job they need to do. That presents 
a clear problem for us.
    All too often, I have had employers tell me they cannot 
find a trained worker for the jobs that they have open. At a 
time of high unemployment, it is remarkable to me that that is 
the case. Yet from my experience as a businessman, I know that 
technology and training are always demanded to make people 
current for the jobs of the 21st century, one of the reasons 
for our focus on Science, Technology, Engineering, and Math 
studies in our technical schools and our colleges.
    As we continue to examine the current system and plot our 
course forward, it remains a priority of mine to find ways to 
hold the system more accountable and more efficient.
    Employers and administrators of the systems have all told 
me they need better data on which to perform the system of the 
individuals being trained. Businesses can make hiring decisions 
and exercise more productive planning if they have a better 
understanding of what labor resources are available, and what 
types of levels of skills they have. With better data, 
administrators and those delivering services can receive a more 
comprehensive report card on the effectiveness of their 
programs, and identify the areas in need of improvement.
    Ultimately, I would hope that any legislation considered by 
this committee in the future addresses the need to streamline 
the system, allows for more local control and flexibility, and 
provides for proper accountability and oversight of the 
Workforce Investment Act program.
    I want to repeat my thanks to Chairman Murray of the 
subcommittee, to Chairman Harkin of the full committee, and to 
Ranking Member Alexander for their commitment to reauthorize, 
in a bipartisan fashion, the Workforce Investment Act.
    Mr. Chairman, while I finish my remarks, one of the 
panelists today is a special friend of mine. Could I introduce 
her to begin with?
    The Chairman. Please do so.
    Senator Isakson. I have been in Congress for 15 years. I 
have been in the Senate for 9 years. I have never been able to 
introduce a neighbor, one of my daughter's best buddies, a 
friend and the election superintendent over the precinct that I 
am elected from, from the State of Georgia to come to the 
Senate.
    Beverly Smith is a very, very talented lady. She worked in 
the private sector for 17 years. She and her husband have a 
small business themselves. But most importantly, as I said, she 
chairs the Cobb County Election Board. She served on the Cobb 
United Way, Northwest Georgia YWCA chose her as a Woman of the 
Year, and she has received the Distinguished HistoryMaker.com 
Award from the National African-American Historical Society. 
Beverly is an outstanding leader in our community, a friend to 
me and my family, and a person who adds greatly to our State 
today, as the assistant commissioner of the Adult and Technical 
Education System in Georgia. Which, I want to add a little 
editorial comment if I can.
    No Georgian lives more than 45 minutes away from a 
technical college in our State. Because of the Quick Start 
program developed in 1974 under then-Governor Busby, Georgia 
has a training program second to none for new and high 
technology industry coming into our State. Beverly, we commend 
you on what you are doing. I know you are going to add a lot of 
this testimony today, and I am very proud to be a citizen of 
your county as well.
    Ms. Smith. Thank you so much.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Isakson. We will continue 
with our witness introductions.
    First, I would like to introduce Mr. David Mitchell, the 
administrator for Iowa Vocational Rehabilitation Services. Mr. 
Mitchell has worked in rehabilitation services in central Iowa 
for nearly 20 years in both the public and private sectors. 
Serving as a community services administrator, rehabilitation 
consultant, branch manager, and vocational counselor.
    He is a certified rehabilitation counselor through the 
Commission on Rehabilitation Counselor Certification. A member 
of the Iowa Rehabilitation Association, Mr. Mitchell is a past 
president, and is a current member of the National 
Rehabilitation Association.
    Next, I would introduce Steve Partridge. Mr. Partridge is 
the president and CEO of Charlotte Works. In this role, he 
helped launch the successful transformation of Charlotte Works 
from a traditional workforce board into a demand-driven, 
economic development organization. Through collaborations with 
business, Government, and nonprofit leaders, Charlotte Works 
has developed innovative solutions to increase job market 
efficiency, provided local talent with the tools and resources 
to successfully gain employment, and worked with businesses to 
help create jobs in Charlotte and Mecklenburg County.
    Prior to joining Charlotte Works, he held a variety of 
executive positions at the Charlotte Chamber, and the Arizona 
Department of Commerce.
    Next is Mr. Alan Rosenberg, vice president and chief of 
staff and chief administrative officer for Temple University 
Health System in Philadelphia, PA. In that capacity, he is 
responsible for the operations and effective functioning of the 
executive leadership group, the management of assigned 
strategic initiatives, providing strategic direction and 
oversight for all communications initiatives, and external 
relations functions, as well as all human resources, facilities 
management, and real estate and planning services.
    Prior to joining Temple's executive team in 2006, he held a 
variety of responsible leadership positions at the University 
of Pennsylvania Health System. He is also a member of the 
Philadelphia Works Board, which is the region's local workforce 
board.
    We welcome you all here. I thank you for your participation 
in this very important hearing. And for all of the backgrounds 
that all of you bring to the table and your knowledge.
    All of your statements will be made a part of the record in 
their entirety. We will start with Mr. Mitchell and work down. 
I would like to ask if you could sum up your testimony in 5 to 
7 minutes, and then we can engage you in some questions and 
answers.
    Again, welcome, and Mr. Mitchell, we will start with you 
and please proceed. Would you hold just 1 second, Mr. Mitchell? 
I apologize.
    I had recognized Senator Isakson, and I started moving 
along, but it has been Senator Isakson and Senator Murray 
together who have been working on this bill and bringing us 
along on it. And I wanted to recognize Senator Murray, who has 
been our lead on our side on the Workforce Investment Act for 
her opening statement.

                      Statement of Senator Murray

    Senator Murray. Mr. Chairman, thank you, and I apologize 
for being late.
    I want to thank you, and Senator Alexander, and Senator 
Isakson for your really important work on the Workforce 
Investment Act. I will submit my statement for the record, so 
you can move to your witnesses.
    Let me say, it has been 15 years since we reauthorized 
this, and the world has changed dramatically. I think that the 
draft that we have put out--which I will include in my remarks 
into the record to describe it--is just that, a draft. We are 
asking for input at this point, but I think we have come a long 
way, and we are really recognizing the great work that is done 
in my State, and we have done some great work.
     I think we have really put together something that 
recognizes the changes in the world and what we need to be 
doing to really help create the dynamic workforce that will 
create a strong economy in the future.
    So I won't take up the committee time, and I apologize for 
being late. I would like to submit this for the record, and let 
all of our committee members know that it has been really great 
to work in a bipartisan manner with Senator Alexander and 
Senator Isakson on this, and I think we put forward a good 
draft, and look forward to moving it through the committee.
    [The prepared statement of Senator Murray follows:]

                  Prepared Statement of Senator Murray

    Thank you, Mr. Chairman.
    I want to express my gratitude to you and Ranking Member 
Alexander for holding this hearing today.
    I want to thank you both for your efforts supporting the 
reauthorization of the Workforce Investment Act. Without your 
backing we wouldn't be here today. I especially want to thank 
two good friends from across the aisle--Senators Enzi and 
Isakson, for their years of steadfast, patient, and persistent 
leadership on this issue.
    I have greatly enjoyed working with them, and have 
appreciated everything they've done to ensure that we are 
providing the education and training required by workers and 
employers to meet today's economic challenges.
    Mr. Chairman, it's been 15 years since the Workforce 
Investment Act was last passed, and 10 years since it was due 
to be reauthorized. As we all know, much has changed in that 
time.
    The Internet boom was driving the economy in the late 
1990s. Then it went bust. Housing was booming in the late 
1990s. Then it went bust. And as a country, we were also 
willing and able to make meaningful investments in our 
workforce development systems in the late 1990s. Now that's 
largely gone bust, too.
    Much has changed since 1998--except for the very law that:

    <bullet> Helps us respond to a changing economy; and
    <bullet> Provides the framework for our Nation's workforce 
development system.

    As a result, and not surprisingly, many have found cause to 
point out the shortcomings of our workforce systems. I'll also 
admit that the system needs modernizing and reforming. But let 
me also point out just a few of the system's many successes.
    The latest results for the adult and dislocated worker 
programs under Title I of WIA for the four quarters ending 
December 31, 2012 show:

    <bullet> 1,027,363 adults and dislocated workers were 
placed in jobs and earned more than $14.8 billion over just the 
first 6 months of their employment--or just under $30 billion 
on an annualized basis.
    <bullet> In this same period, WIA funds expended on adult 
and dislocated worker programs equaled only about $2 billion.

    Let me say that again. An annual expenditure of $2 billion 
yields a return of nearly $30 billion.

    During the recent recession, the workforce system saw 
increases of up to 250 percent in the number of clients it 
served, with relatively little increase in budgets. Yet the 
system--at a time when there were six or seven jobseekers for 
every job opening, consistently had job placement rates of 50 
percent or better.
    There are countless success stories from exceptionally 
innovative individuals and providers--we'll hear about a few 
today--that include:

    <bullet> The development and expansion of sector 
strategies, which in Washington State cover industries such as 
aerospace, maritime, healthcare, finance, information 
technology, and gaming;
    <bullet> The implementation of career pathway models, some 
of the best of which are in Madison, WI;
    <bullet> The creation of the I-BEST program in my own State 
that has transformed the adult education system around the 
country; and
    <bullet> The establishment of innovative programs to serve 
the long-term unemployed, led by Joe Carbone and The WorkPlace 
in Bridgeport, CT, and featured on 60 Minutes, just to name a 
few.

    Mr. Chairman, I'm fortunate to have in my State one of the 
model workforce development systems in the country, so I get to 
brag quite a bit about the good work being done.
    But the staff and board members of the system back home 
aren't shy about telling me where we need improvements and 
reforms--and I've listened carefully.
    As a result, and in working closely with you, Senators 
Alexander, Enzi, and many others, Senator Isakson and I have 
recently released a discussion draft of a reauthorization bill 
that addresses countless recommendations gathered over the past 
5 years.
    Let me emphasize something here--what we've released is a 
discussion draft, not a final bill. We are seeking input and 
advice. But we knew that we had to start somewhere and get this 
process moving again. It's been far too long and we believe 
that the process needed a kick-start. And that's what we've 
done.
    So what does our draft propose? Well, among other things, 
it responds to the 2011 GAO report by:

    <bullet> Hearing the call to help consolidate State 
administrative structures by requiring a single State unified 
plan, instead of multiple plans from each State agency with a 
role in the workforce system. This will help ensure that all 
State agencies are rowing in the same direction and aiming for 
the same goals.
    <bullet> Recognizing that workforce programs have not, in 
fact, been found to be ineffective, but that we lack the 
necessary data and analysis to know which programs work best, 
what makes them good, and how we can improve underperforming 
programs:

        <bullet> LWe have put forward a set of performance 
        indicators for all the programs, helping to ensure 
        collaboration and coordination.
        <bullet> LWe have tremendously increased our focus on 
        improving data systems, assessments and evaluations, 
        and returns-on-investment.
        <bullet> LAnd we have put in place a systems measure to 
        better understand how programs, providers and services 
        currently interact, and how we can improve 
        coordination, alignment, and outcomes.

    We maintain the business majorities on the State and local 
boards while reducing the size of those boards. We move the 
system to be aligned with regional economic development and 
labor markets. We eliminate the sequence of services, and 
increase access to on-the-job training, incumbent worker 
training, and customized training.
    In short, we have proposed tremendous improvements in the 
legislation and the system. But we are open to more 
suggestions. We welcome the coming dialog and look forward to 
finally moving this reauthorization to the finish line. Because 
Mr. Chairman, it's well past time to do so.
    Our workers, our employers, our economy is in need of an 
improved workforce development system that meets today's 
needs--not those from 1998.
    I look forward to today's hearing, to the testimony from 
our witnesses, and to the discussion that will follow.
    Again, thank you for holding this hearing today.

    The Chairman. Thank you, Senator Murray.
    I recognize Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. This is a good example of the way we 
have been able to work with Senator Harkin this year. There 
have been a number of important issues that we have been able 
to work together on, and Senator Isakson has taken the lead for 
Republicans. He has done a terrific job building on Senator 
Enzi's work over the years. Senator Murray has been terrific to 
work with, and I thank them for their work and for their draft. 
It is a great step forward, and I look forward to our having a 
bipartisan solution.
    The Chairman. Absolutely. And thank you, again, Senator 
Alexander for you, and all your staff, working together with 
us.
    Mr. Mitchell, again, your statement will be made a part of 
the record. Please proceed.

STATEMENT OF DAVID L. MITCHELL, ADMINISTRATOR, IOWA VOCATIONAL 
            REHABILITATION SERVICES, DES MOINES, IA

    Mr. Mitchell. Thank you, Chairman Harkin, Ranking Member 
Alexander, and members of the HELP committee.
    We appreciate this opportunity to talk a little bit about 
what is going on in the field of vocational rehabilitation and 
the initiatives that are occurring in the State of Iowa. On 
behalf of Governor Branstad and the State of Iowa, we 
appreciate the work that is being done on reauthorizing the 
Workforce Investment Act, including the Rehabilitation Act.
    I work as an administrator of the State Vocational 
Rehabilitation Program, and in Iowa, that is part of the Iowa 
Department of Education. Our mission is to work for employment 
for people with disabilities. The focus is on integrated, 
competitive, community-based employment. We accomplish this 
through an individualized, person-centered approach that is 
provided through an eligibility process. Services are also 
provided with qualified staff that sees the ability in the 
disability.
    Thanks to the Americans with Disabilities Act, the 
Individuals with Disabilities Education Act, youth with 
disabilities today have experienced lives of better opportunity 
and possibility.
    The National Governors Association has the focal point of 
this year as a better bottom line employing people with 
disabilities. The Office of Disability and Employment Policy at 
the U.S. Department of Labor has provided the financial support 
and technical assistance, including assistance to Iowa to help 
develop employment initiatives to assist individuals with the 
most significant disabilities to achieve success in competitive 
employment.
    State vocational rehabilitation agencies across the country 
have networked together forming a national employment team with 
a single point of contact across multiple States, partnering 
with our business customers to help them develop and implement 
strategies around recruitment of qualified workers with 
disabilities. These activities provide momentum to improve 
employment outcomes and increase labor market participation for 
individuals with disabilities.
    There are exciting opportunities occurring across the 
country in vocational rehabilitation, and I am happy to share 
just three initiatives that we are working on in Iowa that we 
are excited about. These are related to transition, a dual 
customer approach, and a collaborative partnership.
    Past discussions have included the importance of employment 
outcomes for youth with disabilities, something I believe is 
critical to our country. During the past 3 years, Iowa 
Vocational Rehabilitation has spent an average of 58 percent of 
our case service expenditures on transition students. This is 
primarily in the area of post-secondary training. Integrating a 
direct service model, there is an ongoing attempt to provide a 
seamless transition experience.
    Key to this is a recognition that work experience, whether 
it is paid or nonpaid prior to graduation, equals employment as 
an adult. We also are bridging the gap between the 
individualized education plan and the individual plan of 
employment.
    We have developed joint vocational rehabilitation in school 
district programs with shared funding to build capacity, to 
provide specific competency-based skilled training, building 
work skills, independent living skills, and social skills to 
help to find competitive employment.
    We also have improved connections to business, providing 
opportunities to partner with our secondary and post-secondary 
education programs to better meet the workforce demands of the 
future. This is an example of our dual customer approach, an 
added individual value to not only our job candidates, but to 
business.
    We are only effective in vocational rehabilitation if we 
are meeting the needs of those job candidates and our business 
partners. Companies across the country are coming together to 
share their stories of success in working with a diversified 
workforce, including people with disabilities. We can learn 
from these stories on how to better meet their needs as our 
business partners.
    Iowa Vocational Rehabilitation is working to embed 
vocational rehabilitation staff in business and industry 
settings where we gain knowledge on career entry and career 
pathways that assist business, in not only recruiting a 
diversified workforce, but to maintain a qualified workforce, 
and problem solve at-risk employees who are eligible for 
vocational rehabilitation services.
    We do not do this alone. We recognize resources and staff 
are limited, so we are finding ways to leverage those resources 
to provide work effectiveness and to be accountable, and to 
build capacity. Examples of those partnerships include self-
employment programs working with our Iowa Department for the 
Blind, providing entrepreneurial opportunities, and an effort 
to work with the Veterans Administration Vocational 
Rehabilitation Program to provide access to service-connected 
disabilities. And with our Employment First efforts, we have 
partnered with eight State departments with a common vision of 
supporting competitive, community integrated employment.
    The Skilled Iowa program is also an example of a public-
private partnership and serves an example of how to work 
together with our partner agencies. Skilled Iowa is a way for 
businesses to find a skilled workforce and training is provided 
through the National Career Readiness Certificate, which is 
developed by the American College of Testing.
    There is also an internship component to this program. This 
innovative approach helps businesses and individuals minimize 
risks and align incentives. The State of Iowa has appreciated 
the funding to support these types of initiatives.
    I believe in the public vocational rehabilitation program, 
and know that it is a key for continued improvement and success 
in improving the employment results of people with 
disabilities. In Iowa, this is being done through innovative 
programming with our business partners, with occupational 
skills training that occurs at worksites in collaboration and 
partnering with transition projects, with Skilled Iowa 
programs, and with our excellent community rehabilitation 
programs in the State.
    Approaches need to include high expectations for 
employment, a belief in employment for all individuals with the 
necessary supports, and a recognition that work and job 
experiences at an early age equals employment as an adult. And 
there is a need for ongoing support and collaboration among all 
systems of labor exchange to focus on competitive employment in 
meeting the needs of our business partners.
    Thank you, and I will look forward to questions.
    [The prepared statement of Mr. Mitchell follows:]

                Prepared Statement of David L. Mitchell

    Thank you Chairman Harkin, Ranking Member Alexander and members of 
the HELP Committee for the opportunity to share a few thoughts 
regarding the status and future of Vocational Rehabilitation. Thank you 
for the work you are doing to reauthorize the Workforce Investment Act, 
including the Vocational Rehabilitation Act. This legislation is 
critically important and impacts the services and employment outcomes 
for individuals with disabilities.
    I have had wonderful opportunities during the past 30 years to work 
in the vocational rehabilitation field. Experiences have included 
working as a job placement specialist with a sheltered workshop/
community rehabilitation provider, with a community college working 
with students with disabilities, as a rehabilitation counselor in the 
public State rehabilitation system, performing private rehabilitation 
work in the areas of worker compensation, long-term disability and 
contracting with veterans who have service connected disabilities, as 
well as management positions with a private, non-profit rehabilitation 
community provider, and for the past 13 years have been in management 
positions with the State rehabilitation program in Iowa, currently 
serving as the administrator of the State program.
    Thanks to the Americans with Disabilities Act of 1990, and the 
Individuals with Disabilities Education Act (first passed in 1975), 
youth with disabilities today have experienced a life of opportunity 
and possibility. The National Governor's Association has their key 
focal point for this past year as, ``A Better Bottom Line: Employing 
People with Disabilities.'' The Office of Disability and Employment 
Policy at the U.S. Department of Labor has provided financial support 
and technical assistance to the States, including Iowa, to help us 
develop employment initiatives designed to help young people with the 
most significant disabilities to achieve success in competitive 
employment while they are in school and after they leave school. State 
vocational rehabilitation agencies across the country have networked 
together forming a National Employment Team for a single point of 
contact across multiple States partnering with our business customers 
to help them develop and implement multi-state strategies around 
recruitment of workers with disabilities. The work on the 
reauthorization of the Vocational Rehabilitation Act within the 
Workforce Investment Act should leverage and carry the momentum of 
these activities and provide a framework to further expand employment 
for individuals with disabilities.
    Employment and work is good for everyone, but especially for people 
with disabilities. Social networks are formed, quality of life contacts 
are initiated, economic gains occur both for the individual and for our 
economy, business needs are met through the hiring of qualified 
applicants, and there is a definite return on investment, both 
financially for the economy and for the individual. Studies have 
demonstrated health and life satisfaction improves through employment. 
Vocational Rehabilitation is good business.
    Our mission is employment for individuals with disabilities. The 
focus is on competitive, integrated community-based employment 
settings. We do this through delivery of vocational rehabilitation 
services that are individualized, person-centered and provided through 
an eligibility process, not an entitlement program. We also provide 
these services with qualified staff that can bridge the gap between 
ability and disability.
    I want to attempt to briefly discuss a few thoughts regarding the 
future of vocational rehabilitation, which I am quite excited about. 
There is increasing recognition of the importance of the work 
rehabilitation providers perform and the impact that work and the 
outcomes have on our economy, our service delivery system, the lives of 
the individuals with disabilities we work with and our business 
partners. The visibility, the conversation and the attention provides 
an opportunity for us to make a positive difference. This is our time 
to continue the momentum.
    Transition: I note that the bipartisan staff discussion draft that 
you circulated for the Vocational Rehabilitation Act title of WIA in 
2011 and again earlier this week has a strong emphasis on improving 
outcomes for young people with disabilities, something that I believe 
is critical for our country. Despite numerous efforts, disincentives 
occur when an individual does not enter into the labor market and 
instead relies on public benefits. The early provision of service can 
help change the employment results for the positive, especially when 
the services are delivered while young people are still in school.
    Iowa has several initiatives occurring which attempts to partner 
with our schools, community providers and businesses to change the 
cycle of results. During the last 3 years, Iowa Vocational 
Rehabilitation Services has spent an average of 58 percent of our case 
service expenditures on transition students. Primarily, this is in the 
area of post-secondary training. Integrating a direct service model, 
there has been an ongoing attempt to provide a seamless transition 
experience. We are not there yet. Keys to our effort is a recognition 
that work experiences (paid and non-paid) prior to graduation equals 
employment as an adult. Successful efforts have included: Bridging the 
gaps between the Individual Education Program (IEP) and the Individual 
Plan of Employment (IPE); Introducing self-determination strategies to 
improve student's accountability and ownership of planning activities; 
and improved connections to business that provide opportunities to 
partner with our secondary and post-secondary education programs to 
meet the workforce demands of the future.
    Vocational Rehabilitation cannot do this alone. We can't be an 
island, but have to be an active, collaborative partner providing our 
expertise to leverage resources and build capacity. An example of 
success in this area is with our Transition Alliance Programs (TAP). 
This is a program where VR partners with the local school district and 
shares funding and staffing to provide specific work-based, competency-
based skill training to build work skills, independent living skills 
and social competency skills for successful transition into 
competitive, integrated employment settings. It is an individual 
approach which complements the secondary academic programming with 
specific individual employment planning with a goal of competitive 
employment.
    Dual customers: I also noted that your staff discussion draft has 
provisions designed to emphasize the importance of employers as a 
critical stakeholder for the public vocational rehabilitation program. 
We are only effective in vocational rehabilitation if we are meeting 
the needs of our job candidates and our business partners. It has to be 
a dual approach. Companies like Walgreens, Lowes, Microsoft, Hyatt and 
Marriott have seen the advantages and are sharing their stories and 
experiences so we can learn from them in better meeting their needs. 
Iowa VR is exploring opportunities to place vocational counselors in 
business and industry settings where business culture can be learned 
and shared. Knowledge will be gained on career entry and career 
pathways that will help the business in not only recruiting, but also 
maintaining a qualified workforce.
    Work immersion: Employment experiences are the foundation of 
developing and implementing one's preferences, interests and skills. 
Community experiences cannot be replicated in the classroom or 
virtually. Successes are being demonstrated in programs such as Project 
Search, which involves direct, hands-on work rotations occurring at the 
business site over a 9-month time period. Iowa Vocational 
Rehabilitation has developed customized training opportunities that 
occur on the job site allowing increased numbers of individuals with 
disabilities access to meaningful work experiences that provide a work 
foundation. Iowa is developing these opportunities at an increased rate 
and seeing success.
    Individual person-centered planning: Just as each business has a 
specific employment need they require or expect to be met, so does each 
individual job candidate. This places a crucial component on the 
ability to address a service delivery process that provides value to 
each individual served in meeting their individual choices and needs 
with a planning process that can include the supports and individual 
accountability to help them move forward. The individual, person-
centered planning is essential to the vocational rehabilitation 
process.
    Collaboration and partnering: Resources, both financial and staff 
capacity, are limited. We have to be able to leverage available 
resources and staff to provide work effectiveness, be accountable and 
to maximize limited staff capacities. Examples in Iowa include our work 
with the Veterans Vocational Rehabilitation Program and the Iowa 
Department for the Blind, where we operate a collaborative Self-
Employment Program providing opportunities for entrepreneurs to build 
successful businesses. Iowa had 39 successful business startups in 
2012. This also occurs with our Transition Alliance Programs and has 
been a key success with our Employment First efforts during the past 2 
years, where eight key State department programs have come together 
with a common vision of supporting competitive, community-based 
integrated employment and meet regularly to discuss minimizing 
duplication and maximizing resources.
    The Skilled Iowa Program is another example of collaboration and 
partnering between State agencies in Iowa. Fifty-six percent of the 
jobs are middle skill, but only 33 percent of Iowa's workforce fits 
into that category. Thirty-eight percent of Iowa's workforce is low-
skill and are competing for 18 percent of the jobs in the State. 
Skilled Iowa is a way for employers to find a skilled workforce and be 
able to depend on a skilled workforce for the future. Training is 
provided through the National Career Readiness Certification Program, 
which will be implemented in all of Iowa's 348 high schools. We are 
assessing and teaching skills used in business. A focus is on a labor 
force that has proficiencies in applied mathematics, reading for 
content and locating information. Individual job candidates have free 
access to the National Career Readiness Certification Program. 
Community Colleges and Regent Schools have joined the Initiative. There 
is an effort to build this training into our unemployment and welfare 
programs to develop skills. Skilled Iowa also has an internship program 
that matches an unemployed person with an employer for up to 8 weeks of 
on-the-job training. The internships are unpaid, but the individual 
continues receiving their unemployment benefits as long as up to 24 
hours a week are spent on training at the job along with 16 hours of 
weekly certification training. Our Iowa Workforce Centers are working 
with all individuals to promote skill development and employment 
opportunities and are partnering with the Iowa Department of Education 
and Iowa Vocational Rehabilitation Services to ensure all individuals 
are served.
    Integrated, competitive employment: I noted that your staff 
discussion draft has a strong emphasis on the importance of high 
expectations and the promotion of competitive, integrated employment as 
the core mission of vocational rehabilitation. Our goals are to assist 
the business to hire the best qualified job candidate. As we present 
qualified job candidates who happen to have disabilities and begin 
developing a trusting partnership with our business customers, we will 
see expanded opportunities for individuals with disabilities to compete 
for available positions. This is not charity, it is business. 
Individuals with disabilities, just like all individuals, bring a 
unique set of experiences, interests and abilities to a job setting and 
present opportunities for an expanded, diverse work background. We need 
to increase the labor market participation rate for individuals with 
disabilities and demonstrate expanded employment opportunities. 
Concerns occur when select or targeted groups of individuals with 
certain types of disabilities are hired and segregated into special 
sections of a business and are grouped together in situations where 
they are treated differently from all other employees.
    Imagine a situation where a small business owner operates a 
bookstore. The owner happens to have a back injury, the accountant has 
diabetes, and three sales clerks happen to have epilepsy, a learning 
disability and an amputated left leg. The coffee shop in the bookstore 
has an individual with a mental impairment, an individual in a 
wheelchair, an individual with an intellectual disability and one who 
has asthma. All individuals are performing with the necessary supports 
they need to meet the essential functions of their positions in a 
manner that fosters the mission and services of the business. 
Successful employment in integrated community settings does not depend 
upon a percentage of individuals, but on the purpose and working 
conditions of those individuals and earning commensurate wages for work 
performed in the competitive environment.
    Informed choice: The importance of informed choice is central to 
the vocational rehabilitation process. This means an array of options 
is provided to the job candidate, along with the parameters of the 
vocational rehabilitation process, comparable benefits and services 
available in the community and vocational recommendations that can be 
supported to facilitate the employment journey. Vocational counseling 
with a thorough knowledge of the business and employment culture is an 
essential ingredient for success.
    Discussion is occurring today on the role of sheltered workshops 
and the impact of informed choice options. Families, parents and job 
candidates desire and need a safe environment that provides growth 
opportunities. I believe in the role of a continuum of services. I have 
no doubt that current service delivery has shown success when 
community, integrated work opportunities are provided with the 
appropriate employment supports to meet the needs of the job candidate. 
Employment is a journey with forward and reverse steps. Problems occur 
when options like community employment work supports are not explored 
or provided or the setting is considered a final destination place.
    Priority of Order of Selection: Employment results can be 
positively impacted by considering revisions of the Vocational 
Rehabilitation Order of Selection for States that have waiting lists. 
Individuals who require services while employed because they are at 
risk of losing their job can receive post-employment services if they 
had successfully received rehabilitation services leading to that 
employment outcome. These services provide a direct benefit to 
employment outcomes and retaining employment. As VR staff provide 
consultation and technical assistance to our business partners, other 
employees with disabilities are identified that are at risk of losing 
their employment unless appropriate intervention occurs. There is an 
urgency required to address these situations to meet the business need, 
potentially salvage the work situation and avoid having individuals 
lose employment and enter the adult service delivery system. By 
allowing service to individuals who would otherwise be eligible, but 
are at risk of losing their employment unless they receive vocational 
rehabilitation services, efficiencies to the business, the individual 
and to the service delivery system will be found.
    The public vocational rehabilitation program is a key ingredient 
for continued improvement and success in employment for individuals 
with disabilities. This is seen through innovative programming 
occurring today with our business partners, with occupational skills 
training that occurs at work sites, with collaborative partnering 
occurring with our education partners at the secondary and post-
secondary levels, and with partnering occurring in Iowa with our 
Skilled Iowa Initiative Program involving unique service partnering 
with our Workforce Development agency, Department of Education and 
Vocational Rehabilitation addressing the mid-skill gap businesses have 
identified as being a problem.
    We continue to have opportunities today and tomorrow and the work 
you are doing and the legislation that is being drafted has tremendous 
possibilities based upon an individual, person-centered approach. This 
approach needs to include high expectations, employment for all with 
support and opportunity, a recognition that work and job experiences at 
an early age equals employment as an adult, and that there is a need 
for ongoing support and collaboration among all systems of labor 
exchange that focus on competitive, integrated, community employment.
    Thank you for the opportunity to testify and I look forward to your 
questions.

    The Chairman. Thank you very much, Mr. Mitchell.
    Mr. Partridge, welcome and please proceed.

  STATEMENT OF STEVEN PARTRIDGE, PRESIDENT AND CEO, CHARLOTTE 
                      WORKS, CHARLOTTE, NC

    Mr. Partridge. Chairman Harkin, Ranking Member Alexander, 
members of the committee, thank you for inviting me today to 
testify before you.
    My name is Steve Partridge. I am the CEO of Charlotte 
Works, which is Charlotte's workforce development board. I come 
before you today to encourage your support for a bipartisan 
reauthorization of the Workforce Investment Act. 
Reauthorization of WIA is long overdue, and is needed to help 
close the critical skills gaps facing employers, workers, and 
our economy.
    I am encouraged by the turnout we had today, and when 
asking a few people what brought them down today, a few people 
actually told me they thought there was a job fair here today.
    I think that leads into my next statement which is: job 
creation continues to be the No. 1 issue facing many 
communities like Charlotte. And yet the data suggests, as 
Senator Isakson said earlier, many jobs are not getting filled 
because workers cannot be found. What is even more troubling is 
in North Carolina, where we have a lot of manufacturing, there 
is a lot of interest from European companies wanting to bring 
factories from overseas here, but they are concerned about the 
quality of our workforce. We cannot afford to lose these 
opportunities when millions of Americans remain out of work or 
underemployed.
    Charlotte Works is part of a national network of over 550 
local workforce boards with a mission to help jobseekers get 
quickly back to work. The types of services we offer vary from 
State to State, but usually include individual skill 
assessment, jobseeking workshops like resume writing, interview 
preparation, and how to use social media to get a job. We also 
provide one-on-one career coaching, and for many, training 
vouchers to up-fit their occupational skills.
    Yet, my personal belief is the best offer we have for our 
jobseekers is to help with employers. Working more and more 
with employers like Siemens, ABB, Chiquita, and companies in 
Charlotte, we have gleaned important intel about what workers 
need to be successful. What type of training is necessary, what 
jobseekers need to know from a soft skills' standpoint. It is 
not always the hard skills that they need; it is the soft 
skills that make them successful.
    Employers also value the one stop approach that we bring to 
them. No matter what an employer's hiring needs, we liaison 
with Federal, State, and local partners to ensure all those 
jobs get filled, whether they be with veterans, those with 
disabilities, or the long-term unemployed.
    Yet even with our success in Charlotte, there are 
limitations to the current law, and modernization needs to 
occur. Some things I would like to throw out for your 
consideration is encouraging regionalism. Charlotte is a single 
county workforce system. So we have one workforce board for our 
county, yet most employees--and when employers are looking for 
the best trained workers, they look outside our county, which 
makes sense. You go where the talent is, so most workers will 
drive about 50 miles for a good paying job.
    If you draw a circle around downtown Charlotte, that 
encompasses nine counties, which is seven workforce boards and 
two States. We need to do more to act like our clients do, and 
look regionally in looking for the best talent.
    I also encourage more interagency data sharing. There are 
many Federal programs that touch our workforce system. Some, 
very successful; some, I could not comment on if they are a 
success or not because we have different metrics that we all 
look at.
    I am also concerned about many of our veterans. When 
someone leaves active service, they often let the Department of 
Defense know where they are going, but that information does 
not make it to the local workforce board. We struggle to find 
out who the veterans are in our community and what services we 
can bring to bear, but our biggest obstacle is knowing they are 
there. More data needs to be exchanged between Federal agencies 
that touch the important clients.
    Also, we need to connect the dots more between our adult, 
and dislocated, and youth programs. Too often I go to workforce 
board meetings around the country and youth is a separate 
track. We don't talk about our youth programs in the same sense 
that we do for our workers in today's workforce. Yet, those are 
the workers that are going to fill the skills gap that we are 
all talking about today.
    Every time I offer jobs to people that are in the banking 
sector, or other jobs that they may have been displaced from, 
when I ask if they would like to be welders, very few hands go 
up. That makes sense for many people that have invested 20, 30 
years in a career; they may not want to make that switch. But 
if we are going to close the skills gap, we need to start doing 
more with our youth system. Workforce boards can be a great 
convener in a community with the K through 12 system, and need 
to play a more active role.
    And finally, we need to focus on the critical sectors. Last 
year, we helped 8.4 million people with our system and put 4.6 
million back to work. But how many were in the crucial areas 
that are most in demand? How many machinists, how many welders, 
how many IT professional were those? We, as a system, need to 
start making strides in addressing our national problems in 
these issues.
    The Act in front of you today needs to be updated and 
aligned with the post-recession and beyond market realities, 
and I urge you to realize the cost to jobseekers, employers, 
and the economy of not reauthorizing WIA. No one wins if we 
don't modernize, or worse, start from scratch.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Partridge follows:]

                 Prepared Statement of Steven Partridge

    Chairman Harkin, Ranking Member Alexander and members of the 
committee, thank you for the opportunity to testify before you today. 
My name is Steven Partridge and I am the CEO of Charlotte Works, the 
local workforce board in Mecklenburg County, NC. Previously, I served 
as the senior vice president of the Charlotte Chamber; prior to that, I 
was the assistant deputy director of the Arizona Department of 
Commerce, where I oversaw all statewide Workforce Investment Act (WIA) 
programs. In addition, I currently serve on the U.S. Conference of 
Mayors Workforce Development Council's Board of Trustees, which 
develops policy priorities in the area of workforce development for the 
Nation's mayors.
    Job creation continues to be the No. 1 issue for many communities 
such as Charlotte, and so I come before you today to encourage support 
for a bi-partisan reauthorization of the Workforce Investment Act. 
Reauthorization of the WIA, which was passed in 1998 and originally due 
for reauthorization in 2003, is well-overdue and much-needed to help 
close the skills gap hurting America's employers, workers and our 
economy. I appreciate the many challenges facing Congress, and know the 
complicated history of past attempts to reauthorize the WIA.
    Local workforce investment boards serve as important conveners for 
shaping and implementing local and regional workforce development 
strategies to grow local economies.
    There are countless examples of successes; a few from my area 
include:

    <bullet> BAE Systems, a global defense company that opened a shared 
services center in Charlotte. We helped promote the expansion of this 
new service center to a pool of qualified candidates, leading to 
impressive retention rates among those hired.
    <bullet> Marbach, a small German manufacturer, was expanding its 
workforce and needed help finding and screening for key positions that 
would require candidates spending months in Germany learning how to 
operate its precision equipment. We provided that help.
    <bullet> Siemens Energy worked with our team to develop a high-tech 
recruiting and screening tool to hire hundreds of new employees. The 
company needed a streamlined mechanism to advertise the opportunities; 
screen and test thousands of candidates; and interview, hire and train 
them as needed. Siemens' human resources team collaborated with 
Charlotte Works and Central Piedmont Community College to ensure they 
filled the positions when they needed them and with the best 
candidates.

    The web portal we created for Siemens pre-screened 8,000 applicants 
using a series of questions that were developed by managers from the 
manufacturing floor about their experience and skills. Candidates then 
participated in the Career Readiness Certification (CRC) testing 
process that demonstrated achievement and a certain level of workplace 
employability skills in applied mathematics, locating information and 
reading for information. Approximately 80 percent of the candidates 
earned the CRC and were invited to participate in two additional, more 
specific, testing processes prior to interviewing with Siemens.
    The end result was not only that Siemens gained a better-qualified 
workforce, but also that those candidates earned a transferable career 
credential that made them more employable.
    These are only a few examples of the hundreds of Charlotte 
businesses of all sizes and industries that have used WIA-funded tools 
including on-the-job training, skills certifications, customized 
recruiting events and services and more to ensure that jobs are 
created--and stay--in our Nation.
    However, the search for talent is heating up. Prior to selecting a 
location for its newest office, a mid-sized insurance company recently 
approached Charlotte Works to inquire about conducting interviews of 
potential employees prior to deciding if they would expand to 
Charlotte. Over the course of a week, more than 50 interviews were held 
for jobs that did not yet exist. Within a few months of the interviews, 
Charlotte was selected for the expansion; the reason less to do with 
local incentives and everything to do with the depth and quality of our 
local workforce.
    To showcase American talent, our local workforce boards must 
position themselves as the entry point into a vast national network of 
workforce resources that includes K-12, community colleges, 
universities and other federally funded workforce partners. Failing to 
do so puts America's competitiveness at risk and leaves us with a 
fragmented system that is difficult to understand and access.
    Charlotte Works' success in helping WIA job-seekers can be 
attributed to the close relationships we maintain within our local 
business community. These relationships give us the local labor-market 
intelligence that job-seekers find extremely valuable. ``Who's hiring, 
or is about to start hiring? How does the company screen out (or in) 
job applicants? What is the company culture like?'' These are the types 
of questions job-seekers ask us every day. Hiring is done locally. 
jobseekers receive training locally. Economic and community development 
happens locally. I believe workforce development must also happen 
locally and be governed locally.
    I also believe that a successful workforce system must be built on 
a model with clear roles and responsibilities for both the State and 
localities, and that both should be led by businesses, who are the true 
local job creators. Business representatives are often my most 
insightful board members when it comes to identifying local employment 
trends and skills gaps.
    Yet, despite the successes I've just shared with you, the current 
law governing the local workforce system is not without its limitations 
and need for modernization. Some ideas for your consideration include:

    <bullet> Encourage regionalism--With more than 550 local workforce 
boards, our national system ignores the realities of local job markets 
and labor-shed areas. Most businesses, when looking to hire, understand 
that job-seekers are willing to drive up to 50 miles for a good job. We 
need to encourage consolidation and alignment where possible to ensure 
that both businesses and job-seekers receive consistent and seamless 
services.
    <bullet> Encourage inter-agency data-sharing--A truly integrated 
system would also allow for data exchange between various Federal and 
State agencies. A case-in-point is the lack of information the 
workforce system receives on returning veterans. Prior to leaving the 
service, a soldier shares the location of the community to which he or 
she will be moving after separation. However, this information is not 
shared with local workforce boards. If it was, we could use our local 
resources and contacts to assist that veteran to quickly get back to 
work.
    <bullet> Connect the dots between the Adult/Dislocated and Youth 
Programs--Many of today's most critical skills shortages are in areas 
that will not be quickly solved by offering re-training opportunities 
to today's workforce. Many older or experienced workers would rather 
continue to seek employment in their current sectors of employment 
rather than be re-skilled and start over. It is for this very reason 
that WIA must put a renewed focus on arming educators and students with 
localized job-growth information. Local workforce boards must work with 
industry to help create awareness campaigns and re-image industries 
that face skills shortages. I am disappointed with how often national 
and statewide meetings and conferences I attend ignore the critical 
connection between our Adult/Dislocated and Youth programs. Yet that is 
where we will solve America's long-term skills gap, and the workforce 
system should be where local solutions take shape.
    <bullet> Focus on critical sectors--The skills shortages across our 
Nation tend to focus on a few key sectors such as advanced 
manufacturing, energy, healthcare and information technology. Yet the 
workforce system does not specifically hold itself accountable to 
addressing these shortages. All too often, local boards focus on only 
the demand side of the equation and train individuals in areas where 
job growth is occurring, yet they ignore the current market supply in 
the training decision. Training hundreds of individuals in fields that 
already have an adequate supply of talent often leads to dim employment 
prospects for those who were just trained but lack adequate experience. 
Prioritizing training and a national campaign to address the very real 
skills need to be top priorities of any WIA reauthorization.

    Over the past year, nearly 8.4 million people were served and more 
than 4.6 million people were placed in jobs thanks to our Nation's WIA 
system. The Act needs to be updated and aligned with post-recession, 
and beyond, job-market realities. I urge you to realize the cost to 
job-seekers, employers and the economy of not re-authorizing WIA. No 
one wins if we don't modernize, or worse, start from scratch.
    Mr. Chairman, Ranking Member Alexander and members of the 
committee, I am hopeful that you have the will and courage to come 
together to find a bi-partisan solution to reauthorize the Workforce 
Investment Act.
    Thank you.

    The Chairman. Thank you very much, Mr. Partridge.
    Mr. Rosenberg, please proceed.

STATEMENT OF ALAN N. ROSENBERG, VICE PRESIDENT, CHIEF OF STAFF 
  AND CHIEF ADMINISTRATIVE OFFICER, TEMPLE UNIVERSITY HEALTH 
                    SYSTEM, PHILADELPHIA, PA

    Mr. Rosenberg. Good afternoon, Chairman Harkin, Ranking 
Member Alexander, and members of the committee.
    I am Alan Rosenberg, vice president and chief administrator 
officer with Temple University Health System. Thank you for 
inviting me this afternoon to testify on the important topic of 
workforce development and the reauthorization of the Workforce 
Investment Act.
    Given the Health System's successful partnering with 
recipients of WIA funding to build job skills for Temple Health 
employees and to strengthen the quality of southeastern 
Pennsylvania's healthcare workforce, the Health System supports 
WIA reauthorization.
    The Temple Health System includes Temple University 
Hospital, which is the chief clinical teaching site for the 
Temple University School of Medicine. Located in the heart of 
the North Philadelphia, Temple University provides a 
comprehensive array of complex services for our medically 
complex neighborhoods, and serves as a provider of trauma and 
specialty care for the southeastern Pennsylvania region. We are 
an academic medical center with clinical and regional centers 
of excellence, but we also serve as the safety net provider in 
the Philadelphia region.
    Temple Health also includes Fox Chase Cancer Center, 1 of 
40 NCIA designated comprehensive cancer centers. Importantly, 
Temple Health also includes a network of community-based 
physicians, nurse practitioners, and physician assistants in 
almost 50 different sites.
    Temple Health is a critical economic engine for 
southeastern Pennsylvania employing almost 8,500 people with 
good jobs, excellent benefits, and family sustaining wages. Not 
only does effective job training help meet our goal of 
providing quality, effective healthcare, but importantly, it 
helps build a strong community and local economy.
    I would like to describe for you today our partnership with 
two organizations funded through WIA: Philadelphia Works, the 
local Workforce Investment Board on which I serve as a member 
of its board of directors, and the District 1199C Training and 
Investment Fund, a part of AFSCME, which represents over 1,200 
employees in our organization.
    The Training Fund is a labor-management partnership 
established in the mid-1970s with Temple University Hospital as 
a founding member.
    Philadelphia Works, importantly with a new 5-year strategic 
plan, is focused on prioritizing employer needs in all of its 
investment training and is refining its service model to a more 
business service approach with the goal of delivering greater 
value for both employers and jobseekers, matching skills of the 
jobseekers with the needs of the employers.
    By way of example, Temple Health is working with 
Philadelphia Works to obtain funding for our new Community 
Health Worker Initiative where we are using community-based lay 
workers to better connect patients with their caregivers. This 
program, funded by Temple Health, trained its first class of 
workers this past year, and through an OJT contract with 
Philadelphia Works, Temple received a 50 percent wage subsidy 
for 14 employees in the first class, and 15 employees in the 
second class. These are long-term unemployed individuals who 
will have good paying jobs with benefits in the area. We hope 
to expand this program in southeastern Pennsylvania as we work 
with the Corbett Administration to develop Pennsylvania's 
Healthcare Innovation Plan, which envisions the creation of 
community health teams.
    Another example of our connection with the WIA and the 
workforce system is that Philadelphia Works in the past 
provided rapid response funding to support training and 
placement of individuals who were laid off as a result of 
closing or transformation of hospitals affiliated with Temple 
Health.
    Temple Health has also invited the Training Fund to perform 
onsite training at its hospitals for several programs including 
a work-based behavioral health certificate that involves 
funding from outside groups, Robert Wood Johnson Foundation and 
the Hitachi Foundation.
    Last year, Temple Health contributed over $500,000 to the 
Training Fund to provide multiple levels of educational 
assistance for our employees and over 900 of our employees over 
the past 3 years participated in these programs. This 
leveraging of employee contributions with public and private 
funds, provides a strong platform for addressing the supply and 
demand side of the talent pool required by the healthcare 
industry.
    Given the vulnerable nature of the low-income population 
served by Temple Health, programs such as the Training Fund and 
Philadelphia Works help us develop a more job-ready workforce, 
and it helps the Health System in its ability to recruit 
employees in a variety of hospital departments.
    It is a two-way street. The Health System is committed to 
be a partner in the workforce system. We recently have agreed 
in a compact with Philadelphia Works as they have asked all of 
its board members to do, and we have agreed to place all of our 
job openings on the PA CareerLink system. We interview and hire 
candidates from the PA CareerLink system that matches posted 
job opportunities. These would include patient care assistants, 
and unit clerks, and the like.
    We recruit from the CareerLink system for our training 
programs that include job placement such as the Community 
Health Worker Program that I described earlier, and we are 
continuing to explore other pilot programs that will leverage 
the Philadelphia Works' ability to help us place individuals 
into employment.
    As workers from the community become employed within the 
Temple Health System, the ongoing training helps incumbent 
workers to advance into higher level positions to create a 
stable career ladder.
    As the Nation's health care industry continues to change 
with new technologies and movement toward nonhospital settings, 
which is a challenge that the health system and other hospitals 
and providers are dealing with, Temple Health will rely on our 
workforce development partners to help us refine our existing 
and develop new training programs to support our needs in this 
evolving industry.
    Thank you for the opportunity to testify. I would be glad 
to answer questions as you move forward.
    [The prepared statement of Mr. Rosenberg follows:]

                Prepared Statement of Alan N. Rosenberg

    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
members of the Committee on Health, Education, Labor, and Pensions. I 
am Alan Rosenberg, vice president, chief of staff, and chief 
administrative officer for the Temple University Health System. Thank 
you for inviting me to testify here today on the important topic of 
workforce development and the reauthorization of the Workforce 
Investment Act (WIA).
    Given our success working in partnership with recipients of WIA 
funding to build job skills for Temple Health employees and to 
strengthen the quality of southeast Pennsylvania's healthcare 
workforce, the Temple University Health System supports WIA 
reauthorization. I will explain these partnerships more fully below. In 
the meantime, I provide some background information on the Temple 
University Health System (Temple Health).
    Temple Health consists of Temple University Hospital, the chief 
clinical teaching site for Temple University School of Medicine. This 
714-bed hospital includes our Episcopal Campus, which houses our 
behavioral health services and one of the busiest crisis response 
centers on the east coast. Temple University Hospital also includes the 
Northeast Hospital School of Nursing, our community-based RN program. 
Located in the heart of north Philadelphia, one of our Nation's most 
impoverished areas, Temple University Hospital provides a comprehensive 
array of services to our medically complex neighborhoods, and serve as 
provider for trauma and specialty care for the southeast Pennsylvania 
region.
    Temple's family of hospitals also include Jeanes Hospital, a 
community hospital serving northeast Philadelphia, as well as the 
American Oncologic Hospital, the Institute for Cancer Research, and the 
Fox Chase Cancer Center Medical Group, which are collectively known as 
the Fox Chase Cancer Center. Temple Health also includes Temple 
Physicians Inc., our network of community-based physicians, nurse 
practitioners, and physician assistants in 48 practice sites.
    Temple Health is a critical economic engine for Southeast 
Pennsylvania, providing about 8,300 people with good jobs, excellent 
benefits, and family sustaining wages. We take great pride in the 
quality of our employees and the programs we offer to help build their 
skills and advance their careers. Not only does effective job training 
help meet our goals of providing quality, efficient health care, but it 
helps build a strong community and local economy.
    While Temple Health offers a broad range of professional 
development courses through our Human Resources Department and in 
cooperation with Temple University, my focus today is limited to those 
programs which receive funding through the WIA. In this regard, we work 
primarily in partnership with two organizations: Philadelphia Works, 
the local workforce investment board in which I serve as a member of 
its board of directors; and, the District 1199C Training and Investment 
Fund (the Training Fund), which is the training arm of District 1199C, 
an affiliate of the National Union of Hospital and Healthcare 
Employees, which represents about 1,200 of our employees.
    Philadelphia Works connects employers with a skilled workforce 
while helping individuals develop the skills needed to thrive in the 
workplace. Under the direction of its Board, Philadelphia Works is 
currently focused on prioritizing employer needs in all its training 
investments, and is refining its service model to a more business-
services approach. It recently completed research on this topic with 
Temple University's Fox School of Business, and is working with our 
local Chamber of Commerce, the Philadelphia Commerce Department, small 
business, and other organizations with the goal of delivering greater 
value for both employers and jobseekers.
    Temple Health is currently working in partnership with Philadelphia 
Works to obtain funding for our Community Health Worker initiative. 
This program, funded by Temple Health and developed in collaboration 
with the Temple University School of Allied Health Sciences, trained 
its first cohort of workers earlier this year. Through an on-the-job 
training contract with Philadelphia Works, Temple will receive a 50 
percent wage subsidy for 15 employees covering their first 6 months of 
employment. We also have an understanding with Aria Health, Drexel 
University, Einstein Medical Center, and St. Christopher's Hospital for 
Children that they will each hire a Community Health Worker if a new 
on-the-job training contract can be negotiated. We hope to expand this 
program in southeast Pennsylvania as we work with Governor Corbett's 
administration to develop Pennsylvania's Healthcare Innovation Plan, 
which envisions the creation of Community Health Teams. These teams 
would use lay workers to connect high-cost patients with primary care, 
behavioral health, and other appropriate services to improve population 
health while reducing avoidable use of high cost health services.
    In the past, Philadelphia Works provided Rapid Response funding to 
support training and placement of employees who were laid off as a 
result of the closing of hospitals affiliated with Temple Health: 
Neumann Medical Center and Northeastern Hospital. With respect to 
Neumann, the rapid response dollars were used to retrain and build 
skills for behavioral health workers who were re-employed at Temple 
University Hospital-Episcopal Campus. The Training Fund provided 
remedial and technical level course work approved by the city of 
Philadelphia's Community Behavioral Health agency that equated to 12 
college credits. As a result, all except 2 out of 80 workers affected 
by Neumann's closure were re-hired at our Episcopal Campus. Similarly, 
with respect to Northeastern Hospital, about 152 employees were 
retrained and placed in positions within the Temple family of hospitals 
or with other area employers.
    Although Temple Health worked together with both Philadelphia Works 
and the Training Fund on the above initiatives, we also work directly 
with Training Fund on other initiatives. The Training Fund is a labor 
management partnership education trust fund established in 1974 with 
Temple University Hospital as a founding member. Its dual mission is to 
serve both the healthcare industry's need for a skilled workforce and 
workers' need for family sustaining careers with advancement 
opportunities. Last year, the Training Fund provided coursework and 
tuition support to more than 4,500 area residents, of which about 50 
percent were union members, and about 50 percent were community members 
seeking employment and educational opportunities.
    Employees of Temple Health, as well as employees of other 
contributing employers, use the Training Fund's Learning Center to 
obtain their GED, enhance technology skills, take pre-college and pre-
nursing/allied health preparatory classes, obtain credentialed 
healthcare occupational training, and pursue college study. Temple 
Health has also invited the Training Fund to perform onsite training at 
its hospitals for several programs, including a work-based behavioral 
health certificate that involved funding from the Robert Wood Johnson 
Foundation and the Hitachi Foundation; an International Computer 
Driving License for clerical workers; and safety and health training 
for environmental services workers. We are also planning customer 
service training for patient relations employees during the summer.
    Last year, Temple Health contributed about $530,000 to the Training 
Fund to provide three levels of educational assistance to covered 
employees: (1) continuing education coursework at the Training Fund's 
Learning Center; (2) Tuition Assistance of up to $5,000 annually for 
full-time employees and prorated for part-time employees; and, (3) 
full-time scholarship of up to $10,000 to study a health-related 
profession for up to 2 years. Over the past 3 years, about 900 Temple 
Health employees participated in these programs.
    We believe that our investment in the Training Fund provides a 
valuable return not only for our employees, but for the patients and 
communities we serve. We also believe that the leveraging of employer 
contributions with government and philanthropic funds provides a strong 
platform for addressing the supply and demand side of the talent pool 
required by the healthcare industry.
    Given the very vulnerable nature of the low-income population 
served by Temple Health, programs such as the Training Fund and 
Philadelphia Works develop a more job-ready workforce. This helps in 
our efforts to recruit employees in a variety of hospital departments, 
including Dietary, Environmental services, Behavioral Health, Pharmacy, 
Telemetry, Information Technology, Financial Counseling, Billing, Unit 
Clerk, Medical Records, and more.
    As workers from the community become employed within the Temple 
Health System, the ongoing training helps incumbent workers to advance 
into higher level positions to create a stable career ladder. 
Furthermore, as the Nation's healthcare industry changes with new 
technologies and movement toward outpatient, primary care, and home-
based settings, Temple Health will rely on our workforce development 
partners to help refine existing and develop new training programs that 
will support employer needs in an evolving healthcare industry.
    Again, thank you for the opportunity to testify. I am happy to 
answer any questions you might have.

    The Chairman. Thank you very much, Mr. Rosenberg.
    Ms. Smith, welcome and please proceed.

STATEMENT OF BEVERLY E. SMITH, ASSISTANT COMMISSIONER AND STATE 
   DIRECTOR FOR ADULT EDUCATION, OFFICE OF ADULT EDUCATION, 
        TECHNICAL COLLEGE SYSTEM OF GEORGIA, ATLANTA, GA

    Ms. Smith. Thank you and thank you, Chairman Harkin, and 
HELP Committee, and thank you especially Senator Isakson for 
that introduction.
    As a corporate manager for 18 years and a small business 
owner for 20, I never expected to work in the world of adult 
education. Fate put me there. I have to admit, it is not what I 
expected and what I have learned about the incredible numbers 
and the impact of this group of citizens on our economy is 
staggering. It is an economic imperative that we focus on what 
I consider low hanging fruit to our economic recovery.
    I am here to address the importance of the Workforce 
Investment Act's reauthorization as it relates to adult 
education in creating workforce systems for a competitive 
economy.
    Why does WIA matter? Let me first address the need. We have 
31 million adults in this country who do not have a high school 
diploma or a GED. These citizens, our citizens, also don't fit 
into any one ethnic or minority group as some, me included, may 
have assumed. They are equitably all of us. Their chances of 
gaining a job with family sustaining incomes are limited.
    While some have learning disabilities or handicaps of some 
sort, a majority of them are people to whom life happened. The 
breadwinner in the family lost their job during the recession 
and they left school to help get a job. They come from a family 
history of family members without an education and they don't 
value schooling, ``We get along just fine, thank you.'' They 
see no need in staying in school past what they consider the 
basics. They had children at an early age and they dropped out. 
They worked in a factory, a mill, a plant, or an agriculture 
where you did not need to read and write to do well. But now, 
these businesses have closed, have gone overseas, or retooled 
with technology that requires a different set of skills that 
they don't have; they have been laid off or fired with no place 
else to go.
    In other words, these dropouts are able-bodied Americans 
who could be more productive working folks earning a paycheck, 
infusing dollars into our economy, taking care of their 
families, staying out of the criminal justice system, all of 
that, if they just had the resources to educate them and to put 
them on the right path with career and college readiness.
    As WIA ties the education of these individuals to basic 
workforce skills development, there is no doubt in my mind that 
a full partnership between those of us who are expert in the 
education of adult citizens in the basics of reading, writing, 
and arithmetic--the three R's as they called it in my day--and 
those who identify and place themselves in the most efficient 
and effective way placing them in jobs as we describe in 
Georgia Adult Education Program, creating a workforce for 
Georgia and a future for families.
    While the current Workforce Investment Act supports this 
partnership, the reauthorization effort that you undertake will 
provide an opportunity to strengthen that partnership without 
diminishing the role of any of its key stakeholders. Those 
stakeholders being the States' departments of labor, workforce 
investment boards, and State adult education systems that focus 
on the basics of skills development and the new three R's: 
revive, refocus, and retrain.
    Let me share a picture of how a partnership with these 
stakeholders can work together. I am going to use Georgia as an 
example.
    Georgia's Adult Education System is a part of the Technical 
College System of Georgia, TCSG. Our commissioner, Ron Jackson, 
always says that we are an equal part of Georgia's workforce 
education three-legged stool: adult education; our 25 technical 
colleges; and Quick Start, that Senator Isakson mentioned 
before, our world-renowned division that customizes workforce 
training free of charge to qualified businesses.
    Commissioner Jackson also sits on the State Workforce 
Investment Board ensuring that adult education has an equal 
voice. Our adult education office is directly engaged with 
Georgia's Department of Labor to implement Accelerating 
Opportunity, an I-BEST program that takes adult education 
students and put them in college courses at the same time they 
are getting their GED. They get technical certificates and are 
work-ready by the time they finish school.
    The fact that we are positioned to work in partnership with 
an equal voice is good news, but let me delve further into our 
situation in Georgia.
    Even though we have that in place, we are still only able 
to train 70,000 of the 1.2 million adult citizens in Georgia 
who do not have a high school diploma or a GED. And in 36 of 
our 159 counties, 30 percent of the adult population lacks a 
high school diploma. Those are counties that will never have a 
new business or a job without a change in these statistics, and 
I think the same scenario plays out all across the country.
    Recognizing the significant role that each stakeholder 
plays in ensuring an economic strength through a well-trained 
workforce, the opportunity is there for Adult Education, and 
DOL, and the local WIB's to work together for a better balance 
between adult education skills training that leads to job-
specific skills training, that leads to industry and job 
growth. As I have indicated before in the numbers, the 
potential is there.
    How can we improve WIA's reauthorization updates from our 
vantage point? First of all, adult education needs to be at the 
table as an equal partner with the State and local Workforce 
Investment Boards. We need basic skills that must be addressed 
with adult education before these people can even participate 
in job skills training offered through DOL and the local WIB's.
    Second, there is a need to ensure that the key workforce 
players are all held accountable for the same performance 
measures and rewarded equitably by their success on those 
measures. I am a firm believer in pay for performance 
accountability, and that has paid off for us in Georgia. We 
reward our top performers who meet our Federal targets, and 
work to support those who don't with an understanding that 
consequences can happen. However, unless my peers in workforce 
development are accountable for the same results and the same 
incentive dollars that are authorized by WIA, and they are 
equally distributed, then we have mutual accountability that 
does not exist.
    Speaking of funding, I cannot tell you how important it is 
to continue States' maintenance of effort funding. A true 
partnership between State and Federal funding is critical.
    In addition, the percentage of dollars we get for 
administration truly are funds that go to teacher professional 
development and education. While the vast majority of our 
moneys go to local programs, without these Federal dollars held 
as a part of our funding formula, we will not be able to 
maintain the training that teachers need to reach our country's 
goal, and to make sure that we have strong careers, and a 
college-ready workforce.
    There is much more I would like to say, but I only have 5 
minutes and I see it is up. The excitement about the potential 
that we have here is clear. Our country has to be ready for 
whatever is before us. Preparation through education is the 
key. The price of ignorance for us is too high to pay.
    Thank you for this opportunity to testify and I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Smith follows:]

                 Prepared Statement of Beverly E. Smith

    As a corporate manager for 18 years and a small business owner for 
20, I never expected to work in the world of adult education . . . fate 
put me here. I have to admit, it is not what I expected and what I 
learned about the incredible numbers and the impact this group of 
citizens has on our economy is staggering.
    It is an economic imperative that we focus on what I consider ``low 
hanging fruit'' to our economic recovery.
    I'm here to address the importance of the Workforce Investment 
Act's reauthorization as it relates to adult education's role in 
creating a skilled workforce for a competitive economy. Why does the 
reauthorization of the Workforce Investment Act matter, as relates to 
adult education in the United States?
    Let me first address the need: We have 31 million adults in this 
country who do not have a high school diploma or GED. These citizens, 
our citizens, also don't fit into any one ethnic or minority group as 
some, me included, may have assumed. They are equitably all of us.
    Their chances of gaining jobs with family sustaining incomes are 
limited; and while some are learning disabled or have a handicap of 
some sort, a majority of them are people to whom ``life happened.''

    <bullet> The breadwinner in their family lost his or her job during 
our recession and they left school to get a job;
    <bullet> They come from a history of family members without an 
education and they don't value schooling (``We get along just fine, 
thank you!''). They see no need to stay in school past what they 
considered ``the basics'';
    <bullet> They had children at an early age and dropped out;
    <bullet> They worked in a factory, mill, plant or in agriculture 
where you didn't need to read or write well to do the job. But now 
these businesses have closed, gone overseas or retooled with technology 
that requires a different set of skills that they don't have and have 
been laid-off or fired with no place else to go.

    In other words, many of these drop-outs are able-bodied Americans 
who could be more productive working folks, earning a paycheck, 
infusing dollars into our economy, taking care of their families, 
staying out of the criminal justice system . . . all that . . . if we 
had the resources to educate them and put them on the path to a career 
or college readiness.
    As WIA ties the education of these citizens to basic workforce 
skills development, there is no doubt in my mind that a full 
partnership between those of us who are expert in the education of our 
adult citizens in the basics of ``reading, writing and ``rithmetic'' 
(the three ``R's'', as they called it in my day) and those who identify 
and place them in jobs is the most efficient and effective way of doing 
what we describe in Georgia's adult education program of ``Creating a 
Workforce for Georgia and a Future for Families.'' While the current 
Workforce Investment Act supports that partnership, the reauthorization 
effort you will undertake provides an opportunity to strengthen that 
partnership without diminishing the role of any of its key 
stakeholders: those being our State departments of labor, workforce 
investment boards and State adult education systems that focus on basic 
education and skills development with the three ``R's'' of the new 
normal: revive, refocus and retrain!
    Let me share a picture of how a partnership of the State's key 
workforce stakeholders can work . . . and I'll use Georgia as an 
example. Georgia's Adult Education Division is a part of the Technical 
College System of Georgia (TCSG) and, as our Commissioner Ron Jackson 
always says, we are an equal part of Georgia's workforce education 
three-legged stool: adult education, our 25 technical colleges and 
Quick Start, our world renowned division that customizes workforce 
training free-of-charge to qualified businesses. Commissioner Jackson 
also sits on the State Workforce Investment Board ensuring that adult 
education has a voice; and our adult education office is directly 
engaged with Georgia's Department of Labor to implement Accelerating 
Opportunity, which dually enrolls our adult education students in 
college courses allowing them to get their GED and technical 
certificates to be work-ready at the same time.
    The fact that we are positioned to work in partnership with an 
equal voice is the good news, but let me delve further into our 
situation. Even with that in place, we were only able to serve 70,000 
of the 1.2 million adults in Georgia who do not have a high school 
diploma or GED credential and in 36 of our 159 counties, 30 percent or 
more of their adult population lack a high school education . . . 
counties that will never have new business or jobs without a change in 
these statistics. I think the same scenario is played out all across 
our country.
    Recognizing the significant role that each stakeholder plays in 
ensuring greater economic strength through a well-trained workforce, 
the opportunity is there for Adult Education, DOL and local WIBs to 
strike a better balance between basic education skills training, that 
leads to job-specific skills training, that leads to industry and job 
growth. As I've indicated by the numbers . . . the potential is there.
    How can an improvement in WIA's reauthorization updates help from 
our vantage point?

    <bullet> Adult Education needs to be at the table as an equal 
partner with the State and local workforce investment boards. 
Acknowledging that there are a significant number of adults who are 
unemployed or underemployed or who can't even participate in training 
due to basics skill needs must be addressed by adult education before 
these folks can even participate in job skills training offered by DOL 
through our local WIBs.
    <bullet> There is a need to ensure that the key workforce players 
are all held accountable for the same performance measures and rewarded 
equitably for success on those measures. I am a firm believer in pay-
for-performance accountability and it has paid off in Georgia. We 
reward our top performers who met our Federal targets and work to 
support those who don't, with the understanding that consequences 
happen. However, unless my peers in workforce development are 
accountable for the same results and the incentive dollars authorized 
in WIA are equally distributed, that mutual accountability does not 
exist.
    <bullet> Speaking of funding, I cannot tell you how important it is 
to continue States' maintenance of effort funding--a true partnership 
of State and Federal funding.
    <bullet> In addition, the percentage of dollars we get for 
``administration'' is truly funding that goes to teacher professional 
development and education. While we send a vast majority of our moneys 
to local programs, without these Federal dollars held at the State 
level and a part of our funding formula, we will not be able to 
maintain the training that our teachers need to reach our country's 
goal of building a strong career and/or college-ready workforce.
    There's so much more I'd like to say but my 5 minutes is up. My 
excitement about the potential of this population is clear. Our country 
has to be ready for whatever is before us . . . preparation through 
education is the key. The price of ignorance is too high.

    The Chairman. Thank you very much, Ms. Smith, and thank you 
all for really excellent, excellent statements. Your written 
testimonies, which I went over last evening, are just very, 
very good.
    We will start a round of 5-minute questions.
    I want to start with you, Mr. Mitchell, and while WIA is a 
broad-based bill--I assume it comes as no surprise to you and 
probably my colleagues on the committee--that I would like to 
focus a little bit just on people with disabilities and getting 
them into the workforce. And how we are going to focus on kids 
in high school, and get our voc rehab system moving in a 
different direction than what it has in the past. I know you 
have a lot of experience in that area.
    A lot of times I have been told that what I am trying to do 
is setting up some of these kids for failure because they won't 
be able to do integrated competitive employment, and that this 
would come as a harm to them. I just wonder if you have any 
views on that. I hear that a lot, but I just wondered if you 
have thought about that yourself.
    Mr. Mitchell. Thank you, Senator.
    As I look back at my career, I have had plenty failures. 
And as I look at my three children, they have had failures. And 
I think what is a failure, is not to provide the opportunities 
to our youth that experience of community employment options.
    We are finding today that our youth have higher 
expectations and that families have higher expectations. So if 
we can provide the supports necessary to build on those 
experiences, we can improve and impact the transition results.
    I think our opportunity is to make sure we are providing an 
array of choices and to build on experiences so that our youth 
can have success.
    The Chairman. I am glad to hear you say that because I have 
thought before that failure is just a part of life. I failed at 
some of the things I started early on in my life too, and I 
have often felt that kids with disabilities ought to be able 
to, in high school, to try different things. A kid with a 
disability might think he or she wants to do something, and 
then they find out maybe that is not quite what they want to 
do; maybe there is something else. You mentioned briefly in 
your testimony about internships.
    Could you expand a little bit more about how important 
internships are for these kids?
    Mr. Mitchell. I just had a recent experience about this 
where last fall, we met with our Great Plains Regional ADA 
Center, and they talked about the importance of how we bring 
along young people into public policy and in development.
    And through some joint collaboration, there are some moneys 
that came available to develop an internship with Disability 
Rights Iowa, our Iowa Department of Human Rights. We have a 
young gentleman in there now who is doing an internship. He is 
a graduate of a local Iowa high school, has a postgraduate 
degree in political science, and he hadn't worked. Now, he is 
getting an opportunity, through this internship, to develop 
skills, to look at interests, to look at his preferences to 
build a network, and he is a dynamic, young man. He is going to 
do some great things. But he needs some opportunities to build 
on those experiences and to learn what he wants to do.
    So I think in that example, he just spent the last week 
with us at Vocational Rehabilitation getting exposed to what we 
do and how it impacts public policy work, and I think he is 
going to come away from that with lots of ideas to bring it 
back to his internship.
    We also see young students--sophomore, junior, senior 
year--where we know that if they are getting opportunities to 
get out into the community and experience opportunities, they 
are going to learn what they like, what they don't like. They 
are also going to learn some social skills, and what it is like 
to get to work on time, and to get back from break on time, and 
to follow directions. And you need those experiences to be able 
to build those skills, and you can get that through those 
internships.
    The Chairman. Excellent.
    Mr. Partridge, you have, obviously, a very successful 
operation.
    Can you tell us what are you doing? And what does Charlotte 
Works and your partners do to make sure that people with 
disabilities benefit from the excellent services that you 
provide?
    Mr. Partridge. Part of the challenge, I think, with any 
workforce program is getting in front of the employer. We also 
spend a lot of time with the jobseeker and we often have one or 
two people that might be out working with the employers. And to 
understand what their needs are, and then educate them about 
how to work with those with disabilities or to your earlier 
point, how to offer internships.
    Both are difficult because employers have their head down. 
They are lean operations. They don't have a lot of time. They 
are looking for the best fit in that job and they usually look 
through a very focused lens, and so, having the opportunity to 
educate them on what is out there.
    So we started with our voc rehab to talk about how we reach 
out to employers together.
    The Chairman. Tell me more about how you work with voc 
rehab on this because that is one of the things we are looking 
at here.
    Mr. Partridge. We have a representative on our board that 
represents them, and we meet probably monthly to talk about our 
employer services, which is how we reach out jointly because we 
all have different metrics. They have people reaching out to 
employers, sometimes the same employers we are touching. If we 
can work together and have a shared data base in this context, 
we can expand our net even larger.
    Part of it is making sure the technology is in place, 
making sure we have a line of dialog open to set the ground 
rule. Because when you are in the business development world, 
no one likes to share their contact because they are afraid you 
are going to jeopardize that relationship.
    If I have a relationship with Bank of America, I do not 
want to hand that over. But if we put some common metrics in 
place that I am now going to get credit for placing those with 
disabilities when my job was not that originally, now everyone 
wins.
    The Chairman. Very good. Thank you both. My time is up, 
Senator Alexander.
    Senator Alexander. I would like to defer to Senator 
Isakson, if I may, Mr. Chairman.
    The Chairman. Yes, sir.
    Senator Isakson.
    Senator Isakson. Thank you, Senator Alexander.
    Ms. Smith, great testimony. In fact, I wish we could frame 
that definition of those 31 million that you read off because 
it was----
    Ms. Smith. Thank you.
    Senator Isakson [continuing]. A perfect description of the 
challenge that we have in this country of a less than qualified 
and educated workforce. You talked about your pay for 
performance and your strong support of pay for performance.
    Ms. Smith. Right.
    Senator Isakson. How has Georgia used that to effectively 
improve the programs in Workforce Investment?
    Ms. Smith. That is a good question, thank you, Senator 
Isakson.
    We have certain measures, as you all are probably aware 
from the Federal Government from OVAE, Office of Vocational and 
Adult Education, that we have to meet certain standards and 
levels of completion. So we have to get students from one grade 
level to the next.
    We work with--and I will tie that to how we work with the 
Workforce Investment Boards. If we work together in partnership 
and we get our students, and some of our students do come from 
the Workforce Investment Boards, some come from learning-
disabled citizens in terms of working together with them. We 
still have that same goal in mind for them. We try and we have 
transition coordinators.
    One of the things we have done in Georgia is to put 
transition coordinators in all of our local programs. So if 
they have not been able to see past where they are at the 
moment, and that is sometimes the problem we have with a 
student who does not have a GED or a high school diploma, who 
has a learning disability, they might not be able to see past 
where they are because they don't necessarily have an example 
of that. So their world is rather small.
    In addition to making sure that we move them to levels of 
completion, and improve their levels in reading, writing, and 
arithmetic, we also do truly spend time on that refocus, 
revive, retrain portion of it. Making sure that they can 
refocus themselves and see themselves differently, and make 
sure they understand that there are things that are out there 
for them.
    We try to work with those transition counselors to motivate 
them to do other things, at the same time we are trying to 
educate them in fields.
    For example, if you take a low-skilled worker who really 
could work in the restaurant industry, or could work in the 
welding industry. Having classes, and we do this with 
Accelerating Opportunity, where the language we talk in the 
class, the math, for example, or the English, are in terms of 
skill or a field. So they can begin to relate their learning to 
what they can do with that learning once they get past the 
grade level that they are in.
    And that truly makes for us to have a partnership with the 
Workforce Investment Boards because as they try to place people 
in jobs skills training, we try to contextualize their learning 
that they get in adult education so they begin to understand 
and speak the language. So that they can see people in other 
professions who are doing well, who are in the spot that they 
were in.
    Adult education is not just the training in terms of the 
classroom. It is also training to try and expand who they see 
they are, so that they can learn that they can go beyond the 
step that they are at. With that motivation, they really begin 
to move from level to level in terms of completions of 
education so that they can move forward to do something else.
    Senator Isakson. Thank you very much.
    Mr. Mitchell, going to the Chairman's question on 
disabilities, you talk about the seamless transition from the 
individual education plan to the individual plan for 
employment, if I remember correctly.
    Would you talk about how you address that?
    Mr. Mitchell. We actually have a process in Iowa that we 
call our Collaborative Transition Protocol, and it is an effort 
where we have gone in and done joint training in our school 
districts with VR staff and our special education staff to talk 
about common terminology and common data.
    So that when we look at eligibility and functional 
limitations that are in the individual education plan, we can 
move that forward and look at eligibility for vocational 
rehabilitation services. And then be able to build on the 
student's learning preferences, interests, and be able to 
provide that as a more seamless transition process.
    It has involved quite a bit of communication at the local 
school district level with joint training between VR staff and 
teachers within the school system, so we have common language 
and we have common outcomes. And then with that, we are able to 
look at, for the students that are going on into post-secondary 
training, the supports that they need and being able to 
identify that earlier so we can have them in place before the 
student gets there.
    Senator Isakson. Thank you very much.
    Real quickly, Mr. Partridge, and congratulations on 
Charlotte Works; it is a great program. I was interested in 
your focus on regionalism. Mecklenburg County is the home 
county of Charlotte.
    Is that right?
    Mr. Partridge. Correct.
    Senator Isakson. But it is an MSA of nine counties.
    Mr. Partridge. Approximately, yes.
    Senator Isakson. So you have seven Workforce Investment 
Boards in nine county metropolitan areas.
    Is that right?
    Mr. Partridge. Correct, it then goes down to Rock Hill, SC 
as well.
    Senator Isakson. Is that one of the areas we need to 
modernize, the WIA Act?
    Mr. Partridge. I think so. I think there needs to be much 
more encouraging of boards working together. I mean, we will 
never let a business who is not in our area be left holding the 
bag. We are going to work with other workforce boards, whether 
you require it or not.
    But I think there are a lot of inefficiencies that happen 
because we are not working as closely as we could. So I would 
like to see more modernization of that.
    Senator Isakson. It was a great comment because having been 
a chamber president of a Chamber in a large metropolitan 
statistical area, they all compete with each other. Everybody 
wants people to move to Atlanta, but they want them to move to 
your hometown in Atlanta or your home county in Atlanta.
    Mr. Partridge. Right.
    Senator Isakson. When really, we ought to be competing as a 
unified group learning the same thing applies in terms of 
workforce investment. I thought that was an excellent 
suggestion. Thank you.
    Mr. Partridge. Thank you.
    Senator Isakson. Thank you, Mr. Chairman.
    The Chairman. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you to all of our witnesses. We certainly appreciate all 
of you making the effort to be here today and discuss this.
    I wanted to start off with you, Mr. Partridge. By many 
accounts, you run one of the best workforce systems in the 
country, and you have a very successful partnership with 
Siemens and your local community colleges. I understand you are 
closely aligned with your region's economic development plans 
and strategies.
    I heard that you recently announced that you will house the 
representatives of the German Government----
    Mr. Partridge. Correct.
    Senator Murray [continuing]. As part of your effort to 
bring German companies to Charlotte.
    Correct?
    Mr. Partridge. Correct.
    Senator Murray. I really take that as a testament to the 
workforce board's ability to look across and operate in 
partnership with a wide variety of organizations to create a 
very strong, flexible workforce system. So I wanted to ask you 
a broad question.
    What in current law has been beneficial to your success? 
What has been a challenge and, perhaps, how we can improve the 
law?
    Mr. Partridge. I will start with the challenge. Often when 
businesses come to us, they identify need where there is a 
shortage and we quickly want to act on it. But currently in the 
level of service delivery, the ITA process is very slow getting 
people excited about going into certain careers quickly, 
because that is consumer choice. So it often has to convince 
people to go in.
    I would like the ability to allow more group training, 
working with our community colleges to offer whether it is 
melding en masse or other programs that are identified that we 
could work in partnership with them to get the word out and to 
get people together as a cohort going through. I think that is 
one of the areas where we could use the most improvement on.
    Opportunity-wise, I think the fact that we are business-led 
has been a very boon for us. I mean, my business folks have 
more metrics than the Federal Government when it comes to what 
they hold us accountable for. And they push us all the time. In 
fact, they are back there voting on our next year metrics right 
now.
    I think having a business-led board and having the right 
businesses at the table have been critical to our success. 
Having the Siemens's, the Chiquita's, and others are really 
driving the jobs in Charlotte.
    Senator Murray. OK. Very good.
    Mr. Rosenberg, you have also had some significant success 
working with and within the workforce development system. So I 
will ask you the same question.
    What in the current law has been beneficial to your 
success? What has been a challenge, and how can we improve the 
law?
    Mr. Rosenberg. I think the success is being at the table. 
The success is being part of a collaborative process where 
there are businesses, and there are the educational leaders, 
and the workforce leaders. It means we do not have to replicate 
this ourselves for at least a certain level of workers that we 
are going to recruit. That is the model and that is what is 
good about it.
    I would emphasize that there have been changes in 
Philadelphia Works, really, to revise the strategic plan; to 
really focus on businesses, and the need, and the matching of 
what the job holders need and the jobs that we have to place 
them in. So that is the real benefit.
    It is an efficient place to have these conversations 
especially in a place like Philadelphia with a number of 
academic medical centers, a number of us are at the table, and 
we can collaborate, and be efficient in how we do it.
    The challenges are the things that you have heard already 
in terms of the documentation requirements can be onerous, and 
it can be time-consuming. So anything that can be changed to 
make the process more flexible, to speed up the process. To 
give us more discretion in defining what is training. All of 
those things would be helpful, just this idea of building in 
additional flexibility.
    Understanding it has to be a transparent process and 
understanding as a board member, I understand being held 
accountable to the public dollars that are there. But still, 
there is a balance between the flexibility and the transparency 
that would be helpful.
    Senator Murray. OK. Very good.
    I have a minute left, but I wanted to ask you, Miss Smith. 
Your adult education system has been one of the many State 
systems around the country that has taken some dramatically 
different approaches to serving adult students.
    You point out that you are only able to serve 70,000 of the 
1.2 million adults in Georgia who do not have a high school 
diploma or GED.
    Ms. Smith. Right.
    Senator Murray. Do you know how many students are currently 
on the waiting list in your State?
    Ms. Smith. We do. To be honest with you, we have students 
who are on the waiting list, but we also have students that we 
need to serve that we are just not able to reach because we 
don't have the adequate funding to reach them. I think that is 
probably one of our biggest issues in terms of trying to reach 
out to them.
    We do have waiting lists in our programs, but we try to do 
what we can to fill those quickly. The problem with an adult ed 
student is if they have to wait, they are liable not to come 
back.
    Senator Murray. Right.
    Ms. Smith. So we try to make every concerted effort not to 
do that, to keep our enrollment numbers up.
    If we have a program, for example, that finds that they can 
outreach and they have a good number of students they want to 
serve, we try and see if we can find some funding to help them 
do that or move some classes around, try to add additional 
classes where we can, add some online learning. And that is the 
issue.
    When you finally get to the point where you decide you want 
to go back, and take control of your life, we have a goal to 
make sure that they don't have to wait long to do that because 
I am afraid if they do, we might lose them.
    We make every effort possible to keep the waiting list down 
as low as possible to fit them into some transition 
coordination program. If they have to wait for another class to 
start, then we will start having some of the transition 
coordinators, who are like counselors, work with them to try 
and work on the work skills side in terms of thinking, of 
planning, understanding what they can do, and so on, rather 
than just have them wait.
    So we do have them, but we truly try to minimize those.
    Senator Murray. Thank you. Thank you very much.
    The Chairman. Thank you very much, Senator Murray. I am 
going to recognize Senator Alexander, then in order of 
appearance after that would be Senator Baldwin, Senator Enzi, 
Senator Casey, Senator Sanders, Senator Franken, Senator 
Murphy, and Senator Whitehouse.
    Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman. Thanks to all of 
you for being here.
    Ms. Smith.
    Ms. Smith. Yes.
    Senator Alexander. And all of you, we are debating the 
immigration bill this week and next week, and one of the 
results may be that there are a large number of people who will 
be required to be proficient in English in order to get a green 
card or get citizenship, even if we don't pass the immigration 
bill, that is true.
    Ms. Smith. Correct.
    Senator Alexander. So I am wondering, Ms. Smith, to what 
extent do you deal with people who are on their way to 
citizenship who need help learning English? Do they come into 
your adult education programs?
    Ms. Smith. Oh, absolutely. We have a large number of 
students coming in for ESL. As a matter of fact, because 
Georgia has such diversity, the languages that they are coming 
for vary quite a bit. We do a lot of work with them.
    Our ESL programs are very proficient. We have some 
excellent teachers with them, but we do try to reach out to 
them to make sure that we reach that population.
    It is in almost every area of Georgia we have ESL programs. 
Metropolitan Atlanta does, obviously, but the areas in south 
Georgia and north Georgia also have a need for that kind of 
education.
    We actually have right now a special push on with our ESL 
teachers. We are putting them through some special programs for 
their training.
    Senator Alexander. These are for adults.
    Ms. Smith. These are for adults.
    Senator Alexander. We are talking about adult education.
    Ms. Smith. Absolutely. Absolutely.
    Senator Alexander. People learning English.
    Ms. Smith. Exactly. Who need it and it is amazing in terms 
of the number and types of people. Some of the people come in 
have master's degrees, have doctorates. They are working in the 
country legally, but they need to make sure they learn the 
language.
    They are citizens who are coming with companies. For 
example, a Kia plant has just moved to Georgia. When the Kia 
workers come in, they are bringing family members. The family 
members have a need to speak English so they can get 
employment. So the range and the types of people that come in 
for training is----
    Senator Alexander. What kind of programs do you have? 
Describe to me. If I showed up and said, ``I am on my way to 
becoming a citizen. I want to become proficient in English.'' 
Into what do I enroll?
    Ms. Smith. You enroll into a regular adult education class, 
but the levels are a bit different. We still do skills testing 
to see what level they are in terms of how far they have to go.
    Senator Alexander. You could take me only for the purpose 
of learning English?
    Ms. Smith. Absolutely.
    Senator Alexander. Is that right?
    Ms. Smith. Absolutely.
    Senator Alexander. If I show up and say, ``All I want from 
you is I want to learn English.'' You can do that.
    Do I pay for that?
    Ms. Smith. Oh, no. All programs for adult education in 
Georgia are free.
    Senator Alexander. Is there any way to estimate how long 
this takes? I guess it depends on where you start.
    Ms. Smith. It does. It depends on where they start, what 
level of proficiency they have. But their goal is to learn 
English.
    We also have citizenship classes that are a part of the 
adult education classes.
    Senator Alexander. And is that citizenship in preparation 
for the test you take to become a citizen?
    Ms. Smith. Absolutely. As a matter of fact, we spend a good 
bit of time recognizing the programs. We started a new program 
where we are recognizing and honoring this pay for performance 
piece that I talked about. Those programs that are able to help 
citizens, help these students get to citizenship quicker. We 
actually have an award that we give for those who are able to 
work and get these students through, and to make sure we move 
them through as soon as possible.
    Senator Alexander. How is this funded? Through what program 
is this funded? Is this through the WIA Act or is it through 
some adult education account?
    Ms. Smith. It is through our Federal funding that we 
receive.
    Senator Alexander. Federal funding for adult education?
    Ms. Smith. For adult education.
    Senator Alexander. For adult education.
    Ms. Smith. Right.
    Senator Alexander. Do you have more demand for learning 
English than you can meet? Or are you able to help most of the 
students who come in? I am just talking about learning English 
now.
    Ms. Smith. We have a pretty large demand. And because we do 
try to reach out, we try to get as many different grants as we 
can, but the population in a part of our State is quite large. 
In other parts with new immigration laws, it has kind of 
dwindled and the demand is not as large as it used to be.
    Senator Alexander. But if we were to have as one of our 
objectives in an immigration law, that we wanted to help those 
who wanted to learn English, to do that.
    Ms. Smith. Right.
    Senator Alexander. What would be the most efficient way for 
us to help? Would it be to increase funding for adult education 
programs for that specific purpose or would it be some other 
way?
    Ms. Smith. Absolutely. Because we do have specific funding 
that is for adult education for ESL and for EL Civics----
    Senator Alexander. So, that would just go straight into the 
State adult education account.
    Ms. Smith. Exactly.
    Senator Alexander. And then that account would be 
distributed by the State according to what it estimated the 
needs were in different parts of this.
    Ms. Smith. Absolutely. We do an RFP process every year, and 
so our programs will, when they submit the grant moneys that 
they want for the upcoming year, give us an estimation in EL 
and EL Civics, because those are two separate pots from the 
adult education pots, but all adult education, to let us know 
what the demand is. We try to base our funding based on what we 
have, so that we can serve that need.
    Senator Alexander. I am out of time almost, but does anyone 
else have a comment on that line of questioning?
    Mr. Rosenberg.
    Mr. Rosenberg. I would only point out that literacy and the 
soft skills that were discussed before are absolutely a key 
aspect of having a strong workforce. And having that 
educational process be part of what comes through Philadelphia 
Works and the other groups is critical, and is of critical 
value to an employer like Temple Health.
    Senator Alexander. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman.
    I very much appreciate the effort of the Chairman and the 
Ranking Member, and Senators Murray and Isakson in getting us 
to the place we are now. And because I have several questions 
for the panel, I am only going to briefly state my strong 
support for this committee's efforts to reauthorize the 
Workforce Investment Act.
    I have three areas that I hope I get a chance to dive into, 
starting with the long-term unemployed. We have had in our 
country the highest levels of long-term unemployment since the 
Great Depression, and I think currently, the figure is about 
4.4 million Americans who have been out of work for over 6 
months. In Wisconsin, my home State, nearly 35 percent of 
individuals who are unemployed are considered in this group of 
long-term unemployed people, and that is a figure of 80,000 in 
Wisconsin.
    Recent studies on the human effects of long-term 
unemployment paint a really, really grim picture for people in 
that category: increased mortality rates, increased divorce 
rates, poorer educational outcomes for children of those who 
are long-term unemployed. And if that were not enough, 
employers have demonstrated their aversion to higher job 
candidates who have been out of work a significant amount of 
time, making their searches much tougher.
    During this upcoming reauthorization, we have the 
opportunity to make a real impact. I would love to hear from 
our panel of witnesses what you envision as the best policy 
changes that we can make to ensure that the upcoming 
reauthorization accomplishes this mission of really focusing in 
on the long-term unemployed, the training and services that 
they need to re-establish themselves in the workforce.
    Mr. Mitchell. I think as we look at long-term unemployment 
and you combine that with the disability, the factors are 
compounded.
    Senator Baldwin. Yes.
    Mr. Mitchell. I think the support for programs that provide 
avenues of what we have been talking about are very valuable. 
And I think the options that we look at to change the dynamics 
of that situation is how we move a person forward with 
progressive employment. So we have to build on successes.
    What are ways that we can introduce that individual to the 
world of work? Maybe it is a job shadow, an informational 
interview, but you are building some social networks. And then 
once you experience some success there, maybe you look at some 
volunteer work or an unpaid job experience, and hopefully those 
transition into more progressive movements, so you are building 
on successes.
    The programs that support the opportunities for an 
individual to move forward on that journey are very important.
    Mr. Partridge. I would echo some of those. To your point, 
many of our career coaching sessions turn to life coaching 
sessions when there are issues at home about divorce, losing 
one's home, it very quickly gets off track from getting someone 
back to work with the other barriers they are facing.
    What we find is getting them volunteering and getting them 
some work experience, because some of the long term unemployed 
we have in Charlotte, they are very skilled individuals. These 
are people with bachelor's degrees, master's degrees that are 
27 weeks and more. They are not the undereducated necessarily; 
they are overeducated in some ways and never had to face a 
challenge like this before.
    We have a very active volunteer program, both at Charlotte 
Works and in the community. We try to plug them in with other 
nonprofits to buildup their confidence because a lot of folks, 
when you are going through the interview process, they want to 
know what you are doing other than looking for a job. It is no 
longer enough just to be out there searching.
    Mr. Rosenberg. Senator, I think that the only way that an 
employer like the Temple Health System could be involved in 
dealing with the long-term unemployed is through the workforce 
system.
    And the example I gave before of the community health 
workers were 15 long-term unemployed community members who we 
were able to bring in, but there is no way we would have been 
able to identify them, or give them the training, or give them 
the coaching to make them ready for our program. But the 
combination of what Philadelphia Works was able to do and then 
running the program, I think, goes a long way to addressing the 
kind of concerns that you are raising.
    Ms. Smith. I think what you describe is a perfect reason 
why partnership works together and the collaboration works 
together, and WIA does that for us. That is one of the reasons 
why we suggested it needs to be strengthened when they come in 
the door. And a lot of times, I think we have to identify that 
they won't come in. If they have been out of work for a while, 
and unskilled, the embarrassment factor, sometimes they really 
don't know what to do.
    The Department of Labor, Workforce Investment Boards, and 
adult education working together to help reach out to find 
them, first of all. And to make them feel comfortable in that 
environment is important.
    The testing that we do, or the local Workforce Investment 
Board does, is to see where their skill problems are, to see 
what they really do have. Because a lot of the long-term 
workers who are now unemployed, really never did have a high 
school education. The types of jobs they had before did not 
require it; the types of jobs we have now do. And as a result, 
we have really got to make sure they get the basic skills, and 
then the skills toward job training, and then DOL's and 
workforce boards finding them some jobs.
    I think you build the perfect case for why this 
collaboration needs to be strengthened and can work well, so 
that we can reach them to find out where they are today, and 
move down that line to get them where they need to be tomorrow.
    Senator Baldwin. Thank you.
    Mr. Chairman, my ambition to get to three questions was 
clearly out of place, but I hope that I can submit two 
additional questions for the record.
    The Chairman. Absolutely. Without objection.
    I want to publicly, again, thank Senator Enzi for his great 
leadership on the WIA reauthorization, as chairman of this 
committee and as Ranking Member, maybe we will be able to 
finally get this thing through, I say to my good friend.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    I thank you and the Ranking Member for giving the 
flexibility to Senator Murray and Senator Isakson to work on 
this again. It is 8 years out of authorization now, and 
probably time that we ought to do it. So, yes, I feel like I 
have been working on it a lifetime, but I think they have been 
doing some really good work, and I think this hearing will 
help.
    Since time is limited, I will have additional questions for 
all of you.
    But I will start with Mr. Partridge because you mentioned 
in some cases, there is a need for training vouchers.
    Can you tell me a little more about that?
    Mr. Partridge. Under the current law, we use vouchers under 
the ITA, the Individual Training Account, to get people back to 
work. But a lot of times, it is a sales job, to get people to 
go into the high demand areas. We cannot find enough people in 
advanced manufacturing, energy, IT, healthcare to fill the 
slots from those that are currently unemployed.
    So we are trying to find more innovative approaches in sort 
of putting cohorts through, group training at the community 
colleges. But it makes it a little more difficult under current 
law to enter into those contracts. We have to RFP it out. We 
don't have a special relationship with our community college 
like JTPA and past versions of the law allowed for.
    We think having some more flexibility in the way we 
contract that with training would be helpful. We still believe 
in consumer choice, but a lot of times, consumers come in armed 
with incorrect information. They read something in ``USA 
Today'' that there are jobs in a certain field, and they come 
in, they tell me they want training.
    The worse program ever, ``CSI,'' to come out, more people 
want to go into criminal investigation than there are jobs out 
there.
    [Laughter.]
    And so people don't always come in armed with the correct 
information. So we need to do a better job arming both the 
young people and the current jobseekers about where the jobs 
are, and really focus those efforts in putting our dollars into 
those areas.
    Senator Enzi. And you mentioned machinists and welders, 
particularly. Is there kind of a stigma against going into 
those sorts of things?
    We are always talking about sending kids to college now, 
but we need some of the technical workers.
    Mr. Partridge. We do. I think in the early 1970s we, as a 
Nation, certainly made the choice that college for all was 
where we were heading, and the guidance counselor of old became 
the college prep counselor.
    And what happened when completion rates at college are 50 
percent or less, something is wrong. And so, we are turning off 
a whole generation of kids to working with their hands, and 
working with their minds in a way that we stigmatize it. It is 
dirty work. It is something we don't want to do.
    In some places like a Siemens plant that I toured, it is 
more technical than anyplace I have ever been. There are robots 
and computers on every corner, and a clean room environment in 
a lot of areas, and that is something that I could not even do, 
and I completed college, and it seemed that would be a lot 
harder.
    I think we need to change the mind set and do a lot more 
with the K through 12 system to educate the kids and the 
parents because that is who is driving a lot of the decisions 
about, ``That is not where you want to go.''
    Senator Enzi. Appreciate that. There is a book called, 
``The Hidden America: from Coal Miners to Cowboys,'' the people 
who get up every morning, get their hands dirty so you have 
what you need. And it emphasizes, a little bit, some of the 
technical skills that we are stigmatizing so that we are not 
winding up with people that can do those.
    But we are not winding up with kids in college either. We 
are winding up with people who just drop out of the system, and 
then later they figure out that they can't make a living, but 
they are afraid to go back into those things.
    For Mr. Mitchell and Mr. Partridge, on the disabilities, 
one of the things that I have found is that I know of employers 
that have jobs that could be done, but they are not sure where 
to go to find them.
    How do we match up the skills of the people with the skills 
for the jobs? Do you get involved in that? Mr. Mitchell, we 
will start with you.
    Mr. Mitchell. One of the programs that is helping in Iowa 
is the Skilled Iowa Initiative, and that has really been led by 
our Iowa Workforce Development Center. But it is being 
business-
driven by businesses.
    In Iowa, we are fortunate, the economy is pretty good, our 
unemployment rate is pretty low, and we have a mid-skill gap. 
So very much like we have been discussing, where do you get 
those workers and how do you do that?
    The Skilled Iowa program helps bring up those skill levels 
and we are doing it collaboratively where we are partnering 
together with our workforce centers to try to get a common 
message out to our workers to say, ``Here are some needs. How 
do we upgrade your skills to meet those needs?''
    For the person with the disability, we are providing 
vocational counseling. The hands-on work experiences, so the 
work emersion. We are getting kids in high school, even now, 
taking the National Career Readiness Certificate, and they are 
getting feedback on where those skills are at, and then they 
can retest that at many different times during their high 
school and post-secondary career to see if the skills are 
improving.
    And again, it is a way to leverage that with our businesses 
as well as with our hands-on, customized training type 
programs.
    Mr. Partridge. I will echo that skill verification is 
critical. Recruiters from businesses will tell you that they 
already, when they see a resume, that they know that 60 to 70 
percent of that is inflated. That, ``Yes, you can read 
blueprints.'' Maybe that was 20 years ago you looked at a 
blueprint in high school and you haven't done it.
    CRC and other certifications, the national certification, 
are the ways that employers verify that the skills they claim 
they can do on their resume actually are there. And sometimes 
you don't see that as much on people's resumes, but that is 
sort of the trend we are seeing now in Charlotte.
    Senator Enzi. Thank you.
    If I had more time, I would also ask about the problem with 
the money going into stovepipes that wind up as something you 
cannot use in areas that you really need it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi.
    Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Mr. Chairman, thanks very much for holding 
this important hearing. And thank you all for your wonderful 
testimony.
    I am going to ask you, I am going to pick up on the issue 
of immigration that Senator Alexander raised, but take it in a 
little bit different direction. And if you are not comfortable 
answering the question, you do not have to answer the question.
    Including those people who have given up looking for work 
and are working part-time, real unemployment in America is 
close to 14 percent. It is even higher for young people, people 
of color, et cetera.
    A concern that many people have with regard to the current 
immigration bill on the floor right now is that the bill 
proposes to bring in hundreds of thousands of entry-level 
employees. That means kitchen help, parking lot attendants, 
waiters, waitresses, people working in McDonald's, et cetera, 
etc.
    In your experience, or in your knowledge in general, what 
do you think about having young kids in this country who 
desperately need--I think as Mr. Mitchell mentioned a moment 
ago--just the beginning entry into the labor market knowing the 
basic fundamentals of what it means to come to work every day. 
How do you feel about many of those jobs going to folks from 
abroad coming in as guest workers?
    Mr. Mitchell, or if you are uncomfortable answering that 
question, you could skip it, but I would appreciate your 
insight.
    Mr. Mitchell. I think we have found that there are 
opportunities to build those skills for our young people. And I 
am open to looking at ways that we can help our youth with 
disabilities that are citizens of our country to be able to 
move forward. Businesses have needs and I think if we are going 
to be partnering with our businesses----
    Senator Sanders. But Dunkin' Donuts, do you think, cannot 
attract young American kids? Do you think they need people from 
all over the world?
    Mr. Mitchell. No, I think what we found is that businesses 
have identified specific skill sets, and they have identified 
positions that go beyond the entry level positions.
    Senator Sanders. But I am talking specifically about entry 
level jobs.
    Mr. Mitchell. Right.
    Senator Sanders. Mr. Partridge, is this an issue or not?
    Mr. Partridge. Every time I go out in Charlotte, almost 
anywhere I see signs saying they need help, whether it is at 
the local Starbucks or fast food restaurants. So there is 
clearly a demand for workers. Now whether our youth----
    Senator Sanders. What do you think when we have 14 percent 
real unemployment in America? That may not be the case in your 
town.
    Mr. Partridge. I think a lot of workers look for jobs, at 
least full-time workers, look for jobs that pay benefits and 
other things that their family needs. Sometimes entry level 
jobs don't pay benefits, and that is a deterrent for a lot of 
people.
    Senator Sanders. Right. Anybody have any concerns about 
hundreds of thousands of low-wage workers coming in? No? OK.
    Let me ask you another point that was raised and that is 
there is an attitude among young people that we hear all the 
time that, ``The American kids won't do that.'' I know in 
Vermont, we have dairy farmers and the truth is that a lot of 
young kids just do not want to do what their parents and 
grandparents did.
    I worry that if we carry this, ``Well, kids don't do this. 
Kids don't get their hands dirty.'' Nothing wrong with being a 
plumber or a carpenter. The last I heard, they make good wages. 
It is a dignified job.
    Are you running into that as a cultural issue for young 
people in this country? ``I just won't do that, even if it pays 
me a decent wage.'' Or is the wage issue an impediment or what? 
What do you think about that?
    Ms. Smith, have you run into that or not so much?
    Ms. Smith. Yes and no. I think it is a lack of awareness of 
what the jobs are and that they are out there.
    There are so many new jobs and different jobs on that level 
that are technical skills. And being a part of the technical 
college system in Georgia, we run into that all the time where 
the counselors or the parents have given them a 2- and 4-year 
education without realizing that the technical colleges are 
there where they can make just as good a wage, and sometimes 
better.
    I have a son-in-law, who is a cardiothoracic surgeon. He 
has been at school umpteen years now, that he is still trying 
to pay for, where a technical college is 2 years. A starting 
surgeon, someone who graduates from a technical college can 
make just as much money as a starting surgeon does doing things 
that help that medical field.
    I really think the problem is an awareness and an 
understanding of all the careers that are out there that are 
technical education careers that they can get involved in. The 
revolution to that, to me, is to making sure that the high 
school counselors and the parents understand the vast number of 
careers.
    There are so many people out there, as you know, who get a 
4-year degree and they go to school. They work in a job that 
they really don't like.
    Senator Sanders. Right.
    Ms. Smith. Where they could have worked in something that 
they really enjoyed, but they just were not aware at the time 
it was there. That is another area that I think we have to find 
a way to handle to make sure that we raise that awareness. But 
I think there is an interest if they knew.
    Senator Sanders. If I can, Mr. Chairman, point out that one 
of the other problems that we have in this country is not only 
just low wages--and wages, in many cases, going down--but many 
people with college degrees, picking up on Ms. Smith's point, 
are working not at college-level jobs. All right. That we have 
God knows how many people who are working at jobs that require 
a high school degree.
    But I thank you all very much. Appreciate you being here.
    The Chairman. Thank you, Senator Sanders.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    I want to thank Senator Murray and Senator Isakson, and 
everyone who is working to reauthorize this.
    When I travel around Minnesota and I talk to business 
owners, everywhere I go they tell me that they have jobs they 
want to fill, but they can't find people to fill them because 
they can't find workers with the right skills. It is the skills 
gap that has been referred to today. When unemployment is still 
high, too high, that's the problem that we really have to 
solve. And that is why I am very pleased that we are talking 
about this reauthorization. Minnesota, and many other States, 
is working to address this problem by bringing businesses, and 
community colleges, and community technical colleges together.
    Based on what I have seen that works, I am going to be 
introducing a stand-alone legislation to provide funding to 
help jump start or scale up these partnerships, leveraging 
private resources to address the skills gap in manufacturing, 
in healthcare, in IT, and in other fields. I want to give an 
example.
    Hennepin Technical College in Minnesota, local 
manufacturers joined with Hennepin Tech to form the M-Powered 
Program, which trains students in manufacturing skills, and 
these manufacturers lent equipment to Hennepin Tech.
    I met with and had a roundtable there, and this was pretty 
much just right after the crest of the height of the recession, 
the Great Recession, and they had put this course together. It 
trained 300, nearly 300 students, and 93 percent of them had 
permanent jobs. That is a program that is working.
    We also held a subcommittee hearing last year, and we had 
four workforce boards who came in and all the workforce 
partnerships that they highlighted were exactly the same. They 
were different fields, but there are these community and 
technical colleges partnering with a business.
    I will ask Mr. Partridge. I have heard from schools of 
businesses that funding is often a barrier to forming these 
partnerships or scaling them up.
    Are there other issues that we need to address as well?
    Mr. Partridge. I want to make sure that we don't do what we 
have done in the past when these partnerships are formed. 
Sometimes we do address issues of a certain company, but maybe 
not an entire sector. So if you have a larger employer and you 
are training people to meet that company's needs and not maybe 
the sector needs.
    So barriers sometimes are State dollars that might pay for 
the equipment. Sometimes to train these people, you need to 
build a building, you need to put equipment in it. So we need 
to get creative and innovative about how we pay for these type 
of programs because these startup costs are the high part of 
the program.
    Senator Franken. Right, and in a number of these examples 
that I have seen, it is not so much as one local business as a 
field of healthcare or manufacturing----
    Mr. Partridge. Right.
    Senator Franken [continuing]. Or where there is just a 
glaring skills gap. We have not reauthorized WIA since it was 
originally passed in 1998. When unemployment is still as high 
as it is, we have to make sure that workforce programs are 
working well and working as well as they possibly can. That's 
why it is important that when we get it through this time, we 
do it right.
    This is for anyone. Imagine that a lot has changed since 
1998 in job training and unemployment services. Could you talk 
about what has changed and how that should inform our 
reauthorization efforts?
    Mr. Partridge. From our standpoint, the type of people we 
are seeing come through our system has changed dramatically. 
The professionals were never entering our system 5 years ago. 
If you lost a job and you were a college graduate with 5, 10 
years work experience, you could quickly get back to work on 
your own. You did not need the public workforce system to help.
    Now all of a sudden, over the past 5 years, we are finding 
bankers making six figures walk into our doors. And the doors 
they walk through, we are not obviously appealing a lot of 
times. A lot of times, they turn around and walk right back out 
because of the types of programs and services we offer really 
were not targeted to the masses. They were targeted for niche 
populations that we had become accustomed to serving.
    The population group has changed. We have to serve a more 
broad audience now with our system and the type of businesses 
and the type of skill sets they are looking for are really in 
shortage areas. Right? Before, we were, again, placing certain 
target populations, so you worked with a small handful of 
employers. Now you have to work with a broad spectrum of groups 
of employers in different industries like energy and advanced 
manufacturing.
    But one thing we are going to use a lot more is the OJT, 
the On-the-Job Training programs. That has become very 
successful and I hope that program will continue under any 
reauthorization effort.
    Mr. Mitchell. I might add that one of the positive things 
that have changed is the advancement of assistive technology 
and the opportunities to provide supports and accommodations to 
individuals with disabilities. And the realm of opportunities 
that that provides to be able to go into a business and provide 
options and supports to allow individuals to do gainful work 
and to meet the business need.
    Mr. Rosenberg. I would just make the observation that in 
the past when we were recruiting for dietary or housekeeping or 
unit clerks, where you didn't have high-skill set needs, it is 
very different now, whether it is literacy or the technical 
skills they are going to need, and it is difficult for 
individual employers to deal with that.
    The advantage of the workforce system where you have the 
people at the table understanding what has to be changed in 
terms of literacy in terms of the technical training, and 
bringing the scale that we cannot do individually. And that 
helps us in our recruitment as well.
    Senator Franken. Thank you, Mr. Chairman. That last piece, 
the technical training, is exactly what I am talking about in 
terms of these community and technical colleges working with 
businesses.
    Thank you.
    The Chairman. Thank you, Senator Franken.
    Let me followup on that. I just want to ask all of you, how 
do you intersect with, and how do you utilize your local 
community colleges in terms of technical training, skills 
upgrade, maybe changing a skill set for job opportunities that 
were not there before, but are there now?
    It just seems that when we started the community college 
system that is kind of what they were supposed to be for. And 
obviously, they have broadened out.
    I just wonder how do you--if you do--utilize your community 
colleges and what is your working relationship with them?
    Ms. Smith. We absolutely do. In our case in Georgia, we are 
actually a part of the community college system, the technical 
college system in Georgia.
    Senator Franken talks about Minnesota. Minnesota has a 
fantastic FastTRAC. They call it FastTRAC program there. We are 
doing something called Accelerating Opportunity, which is very 
similar to what they do in Seattle.
    Our adult education students, as I mentioned in my remarks, 
will go to the technical college at the same time they are 
working on their GED. So when they leave, they have a 
certificate that makes them work-ready and they also have their 
GED.
    What we found is that there is a strong tie-in. The 
motivation and support services are there. We can put a student 
who is an adult education student who needs to get their high 
school diploma straight into a technical college and they work 
on a dual enrollment similar to the way high school and 
colleges work dual enrollment, and we are able to make them 
work-ready much faster.
    The other piece we found with that, when we take an adult 
education student and put them into the technical college, and 
they are working on getting that GED and their degree at the 
same time, when they get ready, if they decide to go to 
college, they are bypassing learning development. They are 
bypassing any kind of remediation and going straight into 
college courses prepared and ready. If they go into the 
workforce, and the way the partnership works, we only put them 
through programs where there is a need in the community.
    For example, we mentioned welding earlier. If, in fact, we 
have identified, and in Georgia we have in certain parts that 
welding is what is needed, then we will try and find students 
who work on their GED and work on a welding degree at the same 
time.
    In the Savannah area, we have Cessna small aircraft, and so 
there, if they wish to go into that industry, the local labor 
force, and the Workforce Investment Boards, and DOL have 
identified that that is an area where there is a need, then 
they can take carpentry, they can work on the GED. And in 
Savannah, we have already got a partner that is willing to work 
with us so that once we get them out of school, they have got a 
job waiting for them, and it works extremely well.
    We are very excited about it. We started working on it last 
year, and it is a very great program. It works for us.
    The Chairman. Mr. Partridge, I am told that you do some 
interesting things for the community colleges.
    Mr. Partridge. We do. We have a great partnership with 
Central Piedmont Community College, and I think for the past 
couple of years, the President has highlighted some of the 
relationships with Central Piedmont and Siemens.
    When Siemens was doing their expansion, they actually went 
directly to the community college to talk about training needs. 
And the community college realized that they could help on the 
training side, but they really could not help on the assessment 
and the recruitment of workers. So we actually created a 
customized Web portal to help them screen all applications.
    And they had, initially, 750 jobs and had over 10,000 
applicants for those jobs. We screened them. We assessed them. 
The community college then went through and verified their 
skills. And then once they were hired, they went through and 
put them through the training program. So it was seamless to 
the company. In town, they did not really see it. There were 
two entities that were working night and day together to make 
sure that we really created that seamless opportunity for the 
company.
    The Chairman. Very good. I see Senator Casey is here. I 
know he wanted to engage with some questions.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you very much.
    We are grateful for all the witnesses being here. I have to 
offer an apology to Mr. Rosenberg. I was late, but I guess one 
way to explain it is I wanted to make sure that you were 
introduced by the Chairman.
    [Laughter.]
    So the record will look a lot better in history than just 
being introduced by me. But I do want to show you an exhibit 
that is your introduction, that is thorough, and I won't go 
through it again. I won't reintroduce you, but an impressive 
resume, which I am sure the record reflects.
    But we are grateful you are all here and we are working 
both with Chairman Harkin and Ranking Member Alexander, and the 
good work they have done, as well as Senator Isakson and 
Senator Murray over several years. So there are a number of 
folks here who have been working on this for a number of years, 
and we are grateful for that.
    I guess I wanted to, Mr. Rosenberg, I will be in big 
trouble if I don't start with you. I will try not to ignore the 
others, but as a Pennsylvanian, I want to make sure I start 
with you. Maybe two questions and, of course, I think it has 
application to each of our witnesses.
    One is on the question of the employer-partner efforts that 
have been undertaken over time, and the so-called sectors 
approach. I am told that in our State, in Pennsylvania since 
2005, these industry partnerships have engaged more than 6,300 
businesses in 90 partnerships training more than 100,000 
workers; an extraordinary number. So even with all the changes 
we want to make, we should celebrate some success, but if you 
could tell us a little bit about that.
    And then I have a followup question from your testimony 
regarding the Training Fund learning center, if you can expand 
upon that, but just first, this kind of sectored approach.
    Mr. Rosenberg. The sector or the business partnership 
approaches are critical. And I think I probably said this a 
couple of times, but this idea that if there is a pipeline, if 
there is an opportunity to leverage a number of employers in a 
region where you can take advantage of a steady pipeline of 
jobs, and there are going to be vacancies, and you are going to 
be able to match up the employees, it certainly makes sense.
    With Philadelphia Works, there is a focus on green jobs, 
for example. Healthcare has obviously been a critical part of 
our partnerships in the sector approach with Penn, and 
Jefferson, and Temple at the table, where we can share those 
kind of opportunities. And I am sure that is replicated 
throughout the Commonwealth.
    But you are absolutely right. It is a critical part and an 
opportunity to expand in the workforce system.
    Senator Casey. And on the Training Fund?
    Mr. Rosenberg. On the Training Fund----
    Senator Casey. Or a bit more on the Training Fund Learning 
Center.
    Mr. Rosenberg. Great opportunity, it is an absolute 
partnership with our workforce and with AFSCME. We are able to 
send, as I said, some 900 employees through the last 3 years 
through those programs.
    And what it really does is, it gives these employees the 
opportunity to advance up a career ladder because these are a 
lot of entry level jobs that that membership is in. And with 
the Training Fund and the programs there, they have the 
opportunity to get trained up for different skills, different 
jobs within the health system.
    One of the programs specifically was at Episcopal Hospital 
and that was an example where we brought in outside funding to 
help us with that program as well. Again, another good 
partnership collaboration example of what works.
    Senator Casey. I do not know if any of the other witnesses 
want to say something about either of those before I move on. 
Anything?
    The effort that has been undertaken in some States, and it 
is probably not as universally deployed, but layoff aversion 
programs that are part of the effort here. To be able to kind 
of get ahead of the problem before someone is in a position of 
being laid off.
    Anyone have any comments about that or any experience with 
that?
    Mr. Partridge. We do some incumbent worker training as a 
layoff aversion strategy. So we work a lot with small, medium 
manufacturers with lean training, getting their workers up-
skilled to be a little more competitive. They have been small 
grants, $5,000--$20,000 range, but they have paid off. Their 
workers are getting state-of-the-art training that they hope 
will make them more competitive in the marketplace.
    Senator Casey. Maybe I will just ask this more broadly for 
the whole panel. I know you have identified strengths and 
weaknesses and kind of prioritized lists of changes we should 
make.
    But if there is one thing or one element of the existing 
law that you could point to that is particularly frustrating, 
detrimental, a major obstacle from you being able to enjoy the 
full benefits of workforce training, what is the one thing, if 
you had to change one policy, what would it be? And you may 
have already answered this, but it does not hurt to repeat 
ourselves.
    Mr. Mitchell. I had mentioned about our dual customer 
approach, so I think the involvement of business and the 
opportunities that we can have to provide the technical 
assistance, and consultation, and to provide services to 
businesses for the individuals whom they are working with, is 
very important. And to have that recognized would be a positive 
thing.
    Senator Casey. I am out of time, I know, but anybody else?
    Mr. Partridge. I might just add that the workforce system 
is often called the best kept secret, and after all these years 
of having us around, that many people still do not know, both 
from an employer and jobseeker side, what we do or that we are 
out there when they need us, is a failing of the system. 
Probably because we have 550-plus workforce boards all with 
different names, organized differently, has some drawbacks that 
people sometimes have difficulty finding and accessing our 
services.
    Mr. Rosenberg. Senator, I would echo the point of the need 
to market. Let people know what the workforce system can do and 
how it works, and also to make sure that all of the board 
members and the employers in the area are absolutely engaged. 
There has to be an outreach process to tell them what the 
services are and how it is a win-win situation. And that 
certainly has worked for Temple.
    Ms. Smith. I would add one additional thing. Sometimes I 
think the adult educator, the person who needs adult education, 
who needs a GED or high school diploma, is the forgotten 
citizen.
    As I mentioned in my testimony, they have dropped out for a 
whole variety of reasons, but that does not mean that they are 
not intelligent, bright people who have a great deal of 
potential who could be in the workforce. Making sure that adult 
education is at the table with Workforce Investment and with 
the Department of Labor as a recognized entity. They may not be 
the displaced worker, but they certainly are those who have a 
great deal of potential to be a strong part of the workforce 
system, and making sure that that is recognized and 
acknowledged. And that there is some equity in the bill in 
terms of how they sit at the table and what they represent 
would be extremely important to us.
    Senator Casey. Thanks very much.
    Thanks, Mr. Chairman.
    The Chairman. I want to thank our witnesses for their 
testimony and the members of the committee for their questions 
today. We have gained valuable information about the ways the 
workforce system can be strengthened through our 
reauthorization of the Workforce Investment Act.
    The Federal role in workforce development is to support our 
States and local communities in helping our workers, especially 
those individuals with disabilities, or others who experience 
barriers to get the skills they need to secure the good jobs 
that help them succeed and keep our businesses and economy 
competitive.
    As our country continues to rise out of one of the worst 
recessions in our history, it is more important than ever that 
we focus our attention on how to modernize our workforce 
system.
    Again, as has been stated, more than a decade has passed 
since the Workforce Investment Act was authorized. So I am 
especially encouraged by the bipartisan efforts on our 
committee to move a bill through the process. I look forward to 
continuing to work together with my colleagues on this 
important issue.
    Thank you again to our witnesses and the Members of the 
committee. I especially want to thank our Ranking Member 
Alexander, Senators Murray and Isakson for their dedication and 
resolve to get a reauthorization bill done.
    I request that the record remain open for 10 days for 
Members to submit statements and additional questions to the 
record.
    If there is no further business to come before the 
committee, the committee will stand adjourned.
    Thank you all very much.

                          ADDITIONAL MATERIAL

   Workforce Stakeholders Group Statement on Reforming Job Training 
                          Programs in America

                        (Updated March 1, 2013)

                                preamble
    In the first decade of this millennium, our Nation has faced 
enormous tragedies, challenges, and changes that have diverted 
policymakers from giving workforce development and skills attainment 
the level of priority needed. As a result, a number of key Acts are due 
or soon due to be reauthorized. These Acts include:

    <bullet> The Workforce Investment Act (WIA);
    <bullet> The Carl D. Perkins Career and Technical Education Act;
    <bullet> The Higher Education Act (HEA);
    <bullet> The Older Americans Act (OAA);
    <bullet> The Trade Adjustment Assistance Act (TAA); and
    <bullet> The Temporary Assistance for Needy Families Program 
(TANF).

    Many of these laws authorize unique and important programs and 
services to common populations; therefore, the Workforce Stakeholders 
Group believes that the 113th Congress has a strong opportunity to:

    <bullet> Create a cohesive and broad workforce system that 
leverages the unique strengths and resources that numerous systemic 
components (see list below) bring to the table;
    <bullet> Remove the systemic barriers that allow people to fall 
through the cracks and that prevent them from reaching their full 
potential; and
    <bullet> Improve the productivity of business through the provision 
of skilled, competitive, and motivated workers.

    Components of the broad workforce system include:

    <bullet> The workforce system/WIA;
    <bullet> higher education;
    <bullet> career and technical education;
    <bullet> adult education;
    <bullet> veterans' programs;
    <bullet> law enforcement and corrections;
    <bullet> the Temporary Assistance to Needy Families program; and
    <bullet> supportive services such as housing and food assistance.

    As our Nation slowly recovers from the worst recession since the 
Great Depression and unemployment stubbornly hovers at close to 8 
percent, millions of people are seeking supports that will help them 
meet basic needs. Many have turned to safety net programs for 
assistance with housing, food, transportation, child care, and cash.
    In addition to programs that provide support with such basic needs, 
millions of people are also seeking skill-building and advancement 
opportunities that will put them on a career path that leads to 
financial stability and economic security. These include job training, 
employment services, transitional jobs, vocational rehabilitation, and 
education (alternative education, adult education, and post-secondary 
education). Many unemployed, low-wage workers, or people in 
transitional jobs need access to additional education and training 
through a post-secondary institution. Some turn to Adult Education 
programs to gain academic skills that high schools did not provide. 
Many veterans turn to the Department of Veterans Affairs for benefits 
and assistance in overcoming their employment challenges. People with 
disabilities utilize vocational rehabilitation programming for help in 
addressing their employment challenges. And millions more also turn to 
the workforce system for help finding a job.
    The Workforce Stakeholders Group agrees that systemic improvements 
could be made to better promote cross-functional program collaboration 
and systemic integration in order to increase investments in quality 
services, resources, and training. The group believes that these goals 
should be achieved by preserving important programs and systems with a 
track record of success in providing a range of services to specific 
populations with unique barriers to employment, including veterans; 
people with disabilities; youth; older workers; people with a criminal 
background; migrant and seasonal farmworkers; Native Americans; people 
who are homeless; and women seeking non-traditional employment 
opportunities, so that they can successfully gain the skills needed to 
participate in one of the cornerstones of American society--the 
workforce. Furthermore, the broader workforce system must ensure that 
these special populations receive high quality career guidance, 
education, skill training, supportive services and placement.
    More specifically, individuals and organizations that are concerned 
about workforce development and skills attainment, have been working 
for a decade to enact many needed improvements through Workforce 
Investment Act (WIA) reauthorization. Unfortunately, Congress has not 
passed a bi-partisan WIA reauthorization bill, which has prevented 
enactment and implementation of important improvements, while leaving 
the system vulnerable to criticism and budget cuts.
    Rather than rehashing old debates that have proven to be 
unproductive and divisive, the Workforce Stakeholders Group believes we 
should refocus our attention on the following question:

          ``What outcomes do we want from our workforce system, and 
        what elements are needed in order to put the system in a 
        position to achieve them in a constantly changing 
        environment?''

    The Workforce Stakeholders Group answers that question with the 
following:
                             desired goals
    The Workforce Stakeholders Group believes that Congress should 
develop a blueprint that would create a comprehensive workforce system 
that leverages the unique strengths and expertise of its systemic 
components. Together, this broad workforce system should achieve the 
following equally important goals.

    Serve Employers and Businesses: Businesses are most competitive 
when they have access to a strong, agile, and skilled workforce. Such a 
workforce includes workers who are prepared for the jobs that employers 
seek to fill today, and have the ability to learn and build on those 
foundational skills in order to perform the jobs of the future. The 
comprehensive workforce system should connect businesses to workers who 
have the job skills employers seek, or the ability to learn needed job-
specific skills on the job. In addition, the workforce system should 
work with businesses to increase employment equity, improve job quality 
and retention, and provide training and educational opportunities to 
workers to ensure that workers remain current with industry 
advancements.
    Serve People: America's 143 million working people and its 12 
million jobseekers represent diverse groups with a variety of needs. 
The comprehensive workforce system must use a holistic approach to 
advance people along a continuum that leads to work opportunities, 
career advancement, and economic and family stability. Depending upon 
the person, the intensity and length of this journey will vary greatly. 
The comprehensive workforce system should be prepared to assist people 
whenever they seek its support.
    Contribute to Building Stronger Families and Communities: America's 
communities have the potential to be the engines of full national 
economic recovery and growth. Realizing this potential requires 
investments not only in places, but also in people. The Federal 
Government makes a number of investments in the physical capital of 
urban communities, including public housing and transportation 
development. These initiatives have the potential to pay off not just 
in terms of improved community resources, but also in terms of job 
opportunities for local residents. But these opportunities are lost for 
a large portion of urban residents--low-literacy, low-skilled adults in 
particular--unless there are high-quality employment and training 
services that prepare them for the jobs created by Federal investments. 
A comprehensive workforce system should better coordinate investments 
we make in local communities with investments we make in the people who 
live in those communities. The workforce system can help build stronger 
and more stable communities by connecting workers to and qualifying 
them for the best possible jobs, and helping businesses find the 
skilled workers they need.
                            needed elements
    The Workforce Stakeholders Group believes that the following mix of 
elements and attributes is needed in order to achieve the goals 
outlined above.

    Integrated and collaborative: The Workforce Stakeholders Group 
believes that the comprehensive workforce system should treat people 
holistically and be collectively held accountable for ensuring that 
people do not slip through the cracks between each unique component 
that makes up the broad workforce system. Regardless of a service 
seeker's entry point into the broad workforce system, its individual 
systemic components should have the capacity and motivation to ensure 
that service seekers are connected to additional programs and services 
that are outside the functional scope of any systemic component. 
Furthermore, individual components of the broad workforce system should 
have access to information and data needed to view service seekers 
holistically rather than narrowly focusing attention only on the 
specific symptoms that the component has the functional capacity to 
address.
    With this context, the group believes that the current dialog must 
shift from consolidation to promoting integration and collaboration 
among existing resources and programs. The group is concerned that a 
consolidated block grant would lack the sophistication needed to 
appropriately direct resources to address unique target populations' 
needs and challenges. Integrated programs, on the other hand, would 
preserve population-specific resources where they are most needed, and 
would likely result in cost-savings that could be reinvested in proven 
workforce development and job training programs to continue to build 
and sustain the strong and adaptable workforce needed to keep America 
economically sound and competitive.
    The reauthorization of programs such as WIA, CTE, HEA, TANF, and 
TAA also presents an opportunity to encourage and strengthen 
collaborative partnerships that leverage the infrastructures, 
expertise, and resources of service providers, businesses and 
employers, and stakeholders that serve common populations. Such 
innovative approaches can serve to bridge the very supports and 
programs administered by multiple Federal agencies.
    The current workforce system (WIA) is designed to provide services 
and training that will quickly prepare consumers to obtain jobs that 
employers are seeking to fill. Often serving people who are out of work 
and needing immediate employment, it is frequently engaged in crisis 
intervention. It is not designed or resourced to help consumers, 
particularly individuals who are hardest to serve or people who have 
been placed in jobs, yet need to obtain additional skills and 
credentials that will help them to advance in their careers. Currently, 
there are many workforce organizations engaged in successful 
collaborative partnerships, particularly with educational institutions 
like community colleges that can often provide training and industry-
recognized credentials in career and technical education programs. The 
workforce system plays a key role in these partnerships because it 
provides workers with information to navigate their local labor market 
as well as with tools to be better prepared for jobs.
    The Workforce Stakeholders Group believes that consumers could be 
better served by promoting collaborative partnerships that provide 
clear bridges between all the systems that serve common populations 
such as those supported by the U.S. Departments of Labor, Health and 
Human Services, Education, Veterans Affairs, Justice, Housing and Urban 
Development, and Agriculture. Furthermore, partnerships that engage 
local community-based organizations and sector-based partnership in 
this capacity leverage the additional resources, experience, and 
infrastructures; allowing these additional resources to supplement 
Federal resources aimed at common populations.
    By rewarding collaborative partnerships that are part of a holistic 
approach that bridges systems, consumers would be better served than 
through a program-specific approach that focuses only on the issues 
that fall within the scope of individual programs.
    Accountability: While the comprehensive workforce system should be 
collaborating and better leveraging one another's scarce resources to 
achieve the goals outlined above, the Workforce Stakeholders Group 
recognizes that each systemic component within the comprehensive 
workforce system has its own specific performance outcomes that must be 
achieved. To the greatest extent feasible, the group believes that 
system-specific outcomes should align with and support the ultimate 
goals of the comprehensive workforce system.
    The accountability system for the broad workforce system should:

    <bullet> Provide data that is essential for efforts to overcome 
disparities in employment and programmatic outcomes by reporting by 
sub-population, including at least gender, race, ethnicity, disability 
and age;
    <bullet> Ensure that people, regardless of the system they first 
turn to for help, are successfully engaged and welcomed by the 
system(s) that is/are best positioned to address individuals' 
employment challenges.
    <bullet> Take into account individuals' unique employment 
challenges in order to ensure that hard-to-serve populations are indeed 
served, and that services are appropriate and meaningful.
    <bullet> Account for economic conditions in local labor markets and 
individuals' characteristics when they enter programs.
    <bullet> Provide the comprehensive workforce system with the 
capacity to collectively track individuals' interim successes along 
their career and educational paths.

    Employers indicate that it is difficult to find workers who are 
qualified to perform the jobs they need to fill in order to maintain 
productivity. Especially at a time when unemployment is high, it is 
perplexing that millions of jobs are going unfilled. The comprehensive 
broad workforce system should be held accountable for helping to close 
the skills gap by working with businesses, industry, and employers to 
ensure that incumbent and future workers are connected to resources 
that will help them acquire the hard and soft skills employers seek. 
Policymakers should also recognize the need to invest in and maintain a 
data management capacity that allows the different systems within the 
broader workforce system to improve alignment and foster 
accountability.
    Resources: Without sufficient resources, even the best-designed 
system will fail to produce the desired outcomes that the system is 
designed to achieve. The Workforce Stakeholders Group believes that 
Congress should authorize resources based upon what is needed to train 
and educate the workforce of the 21st century.
    Despite Federal disinvestments of more than 30 percent since 2002--
with more than $1 billion in cuts just since 2010--critical employment 
and training programs stand to lose billions more under current 
proposals to reduce the Federal deficit. Such cuts are already having 
an impact: a recent survey of workforce providers found that more than 
three-quarters expected to reduce training as a result of already 
reduced funding levels, and nearly half believed they would have to cut 
back on services for employers seeking skilled workers.

 
------------------------------------------------------------------------
             Program                   2002 \1\            2013 \2\
------------------------------------------------------------------------
WIA \3\.........................  $4,801,217,456....  $2,603,315,124
ABE.............................  $738,907,137......  $594,993,000
CTE.............................  $1,643,307,607....  $1,123,030,275
ES..............................  $1,234,405,967....  $700,841,901
TANF............................  16 billion........  28 percent loss of
                                                       value due to
                                                       inflation \4\
------------------------------------------------------------------------
\1\ All 2002 figures adjusted for inflation.
\2\ As enacted under the current continuing resolution (P.L. 112-175)
  through March 27, 2013.
\3\ Represents funding for WIA Title I Adult, Youth, and Dislocated
  Worker programs.
\4\ As calculated by the Center on Budget and Policy Priorities, http://
  www.cbpp.org/cms/?fa=view&id=3534.

    Our Nation's economy cannot function without a skilled workforce. 
According to the Center on Education and the Workforce at the 
Georgetown Public Policy Institute, by 2020 nearly two out of every 
three U.S. jobs will require some post-secondary education and 
training.\5\ Research suggests that the demand for workers with post-
secondary education is growing much faster than the supply, and by 2025 
the United States will need 20 million more people with a post-
secondary degree or credential than our Nation is currently on-track to 
produce.\6\
---------------------------------------------------------------------------
    \5\ http://www9.georgetown.edu/grad/gppi/hpi/cew/pdfs/
CTE.FiveWays.FullReport.pdf, pg. 2.
    \6\ http://www9.georgetown.edu/grad/gppi/hpi/cew/pdfs/
undereducatedamerican.pdf, pg. 10.
---------------------------------------------------------------------------
    America's workers depend on these education and training programs. 
Last year, more than 9 million individuals received training and 
related services through the federally supported workforce investment 
system--an increase of nearly 250 percent in just 2 years. Millions 
more received training and employment services through youth, career 
and technical education, adult education, vocational rehabilitation, 
and veterans' programs that will help them pursue good jobs or further 
post-secondary education.
    Additional funding cuts would shut the door on these hard-working 
individuals seeking employment, significantly limiting their access to 
the skills and credentials needed to succeed in today's labor market. 
It would stifle the ability of U.S. businesses to find the skilled 
workforce they need to take advantage of new markets and emerging 
economic opportunities, putting our Nation at a competitive 
disadvantage at a time when other countries are ramping up their own 
investments in human capital.
    The Workforce Stakeholders Group believes that the steady erosion 
of funding for the workforce system must be reversed. While concerns 
about the deficit may create a temptation to cut programs; in the long 
term, we need to invest in the skills of America's workforce so that 
more people can develop the market-ready skills to meet the needs of 
U.S. industries and the larger U.S. economy now and in the future.
    Special populations: The group strongly believes that programs that 
aim to meet the special needs of certain populations must be a high 
priority, properly resourced, and measured to ensure that special 
populations have access to quality services that holistically address 
their unique challenges. Therefore, the needs of special populations 
must continue to be a priority. A consolidated block grant would lack 
the sophistication needed to appropriately direct resources to address 
unique target populations' needs and challenges.
    Several programs were created with the intention of ensuring the 
provision of services to specific populations that are unlikely to be 
feasible in a general-population service setting. For example, 
experience informs us that youth are typically better served in the 
context of a youth-specific program rather than in a general program.
    Other programs were created because a national program better 
serves the target population. For example, migrant and seasonal 
farmworkers are an extremely mobile population and it is unrealistic 
for Congress to expect Governors to serve people who only work briefly 
in their States and then move elsewhere.
    As Congress works to create a comprehensive workforce system, the 
Workforce Stakeholders Group urges Congress to ensure that the system 
is equipped and able to provide the right services and supports to help 
people to overcome their unique and personal employment challenges.
    Employers and Industry: The U.S. workforce system is often 
criticized as a sum of disconnected parts, with worker training poorly 
matched to industry demand, a lack of focus on industries that are the 
most important to local economies, and duplicative business outreach 
and workforce training services. A comprehensive workforce system will 
better engage employers and industry at the local and regional level, 
and ensure that workers are obtaining the skills and credentials 
employers are seeking for job openings in local and regional economies.
    Sector strategies respond to such criticisms. At the regional labor 
market level, they are partnerships of employers in one industry that 
bring together government, education, training, economic development, 
labor, and community organizations to focus on the workforce needs of 
their industry. At the State level, they are policies and investments 
that support the development of local sector partnerships. A growing 
body of evidence demonstrates their effectiveness for employers and 
workers.
    When employers find effective ways to work together with the public 
education and training systems--particularly the small and mid-sized 
firms that are increasingly responsible for U.S. job creation--they can 
improve their profitability. In a survey of employers participating in 
sector partnerships in Massachusetts, 41 percent reported reduced 
turnover; 19 percent reported less rework on the job; 23 percent 
reported fewer customer complaints; and 100 percent of the companies 
said that participation in a sector partnership was valuable.\7\
---------------------------------------------------------------------------
    \7\ Cathryn, ``BEST Benefits''; Industry Partnerships in 
Pennsylvania.
---------------------------------------------------------------------------
    Workers also benefit from involvement in a sector partnership. 
Navigating the education market to secure the knowledge-based skills 
required in today's economy is as daunting as navigating the labor 
market. Thousands of credentials exist, including full degrees, short-
term certificates, and professional licenses. Which ones do employers 
accept? Which education and training programs are flexible enough to 
allow working adults to complete them and obtain their credential? 
Public sector programs serving industry and jobseekers through a sector 
partnership are better able to align the needs of employers with the 
career paths of workers, and the results for employees are higher wages 
and better jobs. A 2009 random-assignment evaluation of three sector 
partnerships showed that worker participants earned significantly more 
(18 percent more, or $4,500 over 24 months) than the control group. The 
reason was that they were more likely to work, worked more 
consistently, and worked in jobs with higher wages. They also had 
higher-quality jobs, as measured by benefits such as health insurance, 
paid vacation, and paid sick leave.\8\
---------------------------------------------------------------------------
    \8\ http://www.ppv.org/ppv/publications/assets/325_publication.pdf.
---------------------------------------------------------------------------
    Such outcomes help explain why an estimated 1,000 regional sector 
partnerships are operating across the country, and more than 25 States 
are exploring or implementing sector strategies as a way to address 
industry needs through education and training programs.\9\ The 
Workforce Stakeholders Group urges Congress to ensure a comprehensive 
workforce system supports such best-practices to more effectively 
engage employers and industry.
---------------------------------------------------------------------------
    \9\ http://www.sectorstrategies.org/library/2010/snapshot-state-
sector-activity.
---------------------------------------------------------------------------
    Industry-Recognized Credentials and Certificates: The Workforce 
Stakeholders Group believes that stackable, nationally portable, 
industry-recognized competency-based skills credentials will help 
connect employers to the workers they seek. In addition, the group 
believes that the broad workforce system should be positioned to and 
held accountable for addressing the needs of:

    <bullet> regional economies and key regional industries;
    <bullet> employers in key regional industries who need to hire for 
middle-class jobs or for jobs in pathways to them; and
    <bullet> employers who want to improve the quality of their jobs.

    This will use public resources most effectively and do the most to 
make businesses competitive while bringing about the most financial 
stability and economic security.
    Labor Market Information: In order to achieve the goals outlined in 
this statement, the broad workforce system will require quality real-
time labor market information that will allow stakeholders to identify 
growing and/or high-demand occupations in regional labor markets, and 
key industries that are connected to such growing and high-demand 
occupations. Furthermore, in order to close the skills gap, information 
is needed to identify under-served populations and prepare them for 
regional employment opportunities.
    Supportive Services: It is well-known that people who lack stable 
housing, reliable transportation, access to health care, and child care 
are less likely to succeed in employment. Yet many people who turn to 
the workforce system for help face these and other barriers to 
employment.
    Under current law, WIA funds may be used to provide supportive 
services to people who are participating in core, intensive, training 
or post-exit services; and are unable to obtain supportive services 
through other programs that provide such services. Unfortunately, the 
law creates barriers and disincentives to the provision of supportive 
services. The Workforce Stakeholders Group believes that Congress 
should acknowledge that the provision of supportive services is often 
an important key for many people who seek to find jobs and succeed in 
the workforce. Congress should ensure that the broad workforce system 
has the capacity to directly enroll jobseekers in supportive services 
if they would benefit from them.
    Governance and Infrastructure: The Workforce Stakeholders Group 
understands that it has been difficult to resolve a number of State and 
local governance and infrastructure issues. The group believes there is 
an appropriate role for both State and local decisionmakers, and 
therefore believes that authority should be shared between States and 
local areas. In addition, the group believes that steps should be made 
to ensure that decisions made take into account a number of key 
economic and social attributes, including areas' industries, workers, 
population demographics, and public and private resources. It is 
important to recognize, however, that workers live at a local level, 
businesses employ local workers, and the impact of long-term 
unemployment are realized in the local community. Therefore, local 
flexibility, including clear and significant roles for local elected 
officials and local workforce boards, must be retained to allow the 
system to adapt to the real needs of real employers and jobseekers.
                               conclusion
    The reauthorization of WIA is an obvious immediate opportunity to 
make needed improvements that will ensure that our workforce is 
prepared for the jobs employers need them to perform today and 
tomorrow. The group believes that wholesale consolidation of key 
programs, as proposed in House legislation, The SKILLS Act (H.R. 803), 
would move workforce programming in the wrong direction. Such a one-
size-fits-all system risks becoming an underfunded system that lacks 
the resources and sophistication needed to meet the unique needs of 
certain individuals who must overcome population-specific employment 
challenges.
    As our Nation is only beginning to emerge from the worst recession 
since the Great Depression and ongoing global competition is a long-
term certainty, the Workforce Stakeholders Group has grave concerns 
about proposals to dismantle the current workforce system. Such action 
would only serve to divert attention from providing quality employment 
services and job training to people who need job placement and 
supports. Instead, time, attention and resources would be spent on the 
implementation and rebuilding of a new workforce system. In other 
words, it is not necessary or cost-effective to tear down the whole 
barn when it is just the roof that leaks.
    As Congress begins again to look at the reauthorization of the 
Workforce Investment Act, policymakers should keep in mind that WIA 
programs have played a pivotal role in helping jobseekers and employers 
rebound from the ``Great Recession.'' The latest quarterly reporting 
data provided by the Department of Labor indicates that more than eight 
million jobseekers have utilized WIA formula programs over the past 
year (DOL, WIA system quarterly reports ending March 31, 2012), a 
dramatic 291 percent increase over just 4 years ago (DOL, WIA system 
quarterly report ending March 31, 2008). These most recent reporting 
data does not include an additional 786,000 jobseekers using targeted 
WIA programming to help special populations with additional barriers to 
employment.
    The Workforce Stakeholders Group continues to stand ready to work 
with policymakers to enact policies that will ensure that America's 
workforce is again the most skilled, the most competitive, the most 
productive, and the most adaptive workforce in the world.
                 about the workforce stakeholders group
    The Workforce Stakeholders group includes a range of organizations 
that are engaged in efforts to ensure that people served by the 
workforce system and programs that support the workforce system:

    <bullet> Create a pipeline of qualified employees for business and 
employers;
    <bullet> Find easy access to the services they need to help them 
find jobs;
    <bullet> Have access to supports needed to advance in careers; and
    <bullet> Receive quality services that help them overcome unique 
challenges they face.

    These organizations represent State and local policymakers and 
program administrators, advocacy groups, service providers, and 
technical assistance providers.

    <bullet> Asian Pacific American Labor Alliance, AFL-CIO & APALA 
Education Fund;
    <bullet> Association of Farmworker Opportunity Programs;
    <bullet> Coalition of Labor Union Women;
    <bullet> Corporate Voices for Working Families;
    <bullet> Corporation for a Skilled Workforce;
    <bullet> Council for Adult and Experiential Learning (CAEL);
    <bullet> Easter Seals;
    <bullet> Goodwill Industries International;
    <bullet> Insight Center for Community Economic Development;
    <bullet> International Economic Development Council;
    <bullet> Jobs for the Future;
    <bullet> Legal Momentum;
    <bullet> National Alliance for Partnerships in Equity;
    <bullet> National College Transition Network at World Education;
    <bullet> National Council of La Raza;
    <bullet> National Council for Workforce Education;
    <bullet> National Disability Rights Network;
    <bullet> National League of Cities;
    <bullet> National Skills Coalition;
    <bullet> National Transitional Jobs Network;
    <bullet> National Youth Employment Coalition;
    <bullet> National Workforce Association;
    <bullet> PHI--Quality Care through Quality Jobs;
    <bullet> Proliteracy;
    <bullet> Sargent Shriver National Center on Poverty Law;
    <bullet> Senior Service America;
    <bullet> The Corps Network;
    <bullet> United Way Worldwide;
    <bullet> Wider Opportunities for Women;
    <bullet> Workforce Learning Strategies;
    <bullet> Young Invincibles; and
    <bullet> YouthBuild USA.

      Response by David Mitchell to Questions of Senator Murray, 
                Senator Baldwin, and Senator Whitehouse

                             senator murray
    Question. A question for each of the panelists. Of great concern to 
me in the last few years have been significant funding cuts to the 
workforce system, even before sequestration. Obviously, funding under 
WIA is not enough to meet all of the needs of employers and jobseekers. 
Let me ask each of you, how do you leverage funding in this challenging 
fiscal environment and what are the other key funds that you utilize?
    Answer. Iowa has multiple efforts occurring to leverage staff and 
financial resources effectively among our service delivery programs. 
Iowa Vocational Rehabilitation depends on State appropriations and 
other third-party matching funds which the Federal Government matches 
78.7 percent to 21.3 percent. Federal dollars are allocated to every 
State for the delivery of vocational rehabilitation services. IVRS is 
utilizing third party match resources to improve employment outcomes 
and draw additional Federal dollars. An example of this type of program 
is a Project Search program working with the Des Moines Public School 
District. This program provides business work experiences which occur 
at the work environment on a rotational basis to build work skills and 
behaviors. Students participating are still in high school, but all 
work experiences occur at the business site and are complimented by 
education to supplement the work experience. This is a jointly funded 
program between IVRS and the Des Moines School District. We also have 
seven Transition Alliance Programs which are shared funding between 
local school districts and IVRS to facilitate improved transition 
experiences for secondary students with disabilities. These are just 
two examples of shared funding programs that provide work 
effectiveness.
    Another example of shared funding under WIA is our one-stop 
centers. These provide collaborative partnerships providing a more 
seamless system of service delivery while capitalizing on shared 
building resources to minimize cost duplication. Multiple partners are 
involved, but in many situations our workforce centers and VR staff are 
primary partners.
    The Department of Labor has provided several grant initiatives to 
impact employment for individuals with disabilities and Iowa has 
actively competed to participate in those opportunities. The Employment 
First initiative, the Disability Employment Initiative and the Iowa 
Coalition of Integrated Employment (Partnerships in Employment Systems 
Change Grant through the Administration of Intellectual and Development 
Disabilities) are examples where collaborative partnerships have 
occurred allowing for leveraged funding and expansion of services 
provided as well as individuals being served.
    The Skilled Iowa Initiative is another example of a program 
supported by our Governor encouraging shared resources and work 
efficiency. The America Job Centers support individuals to participate 
in the skilled training and certification programs and IVRS supports 
program involvement through common referrals and access to service 
programs. These efforts assist in eliminating duplication of efforts 
and expand capacity to serve additional individuals through shared 
funding.
    Finally, State leaders, including Governor Branstad, appreciate the 
growing recognition by Congress and the Administration of the value of 
the WIA 15 percent set-aside holds for jobseekers and businesses. 
Bicameral, bipartisan support for re-
establishing the set-aside for the States is evident. The State of Iowa 
strongly supports efforts to fully restore the 15 percent set-aside, so 
State agencies can work together and have the flexibility to tailor 
initiatives and programs to train workers, meet the unique needs of 
business and foster innovation.
                            senator baldwin
    This question is for any of the witnesses and relates to incumbent 
working training, or efforts to help folks who currently have jobs get 
the professional development they need to climb the ladder in their 
place of employment.
    As you know, under WIA, incumbent worker training is only a part of 
the allowed statewide activities--and not the local activities. 
Furthermore, it seems that incumbent worker training is not a priority 
in many areas as it is only an allowable use of State WIA funds, and 
only 15 percent of State funds can be used for Adult Activities.
    I have heard from stakeholders in my home State of Wisconsin that 
they feel like the current incumbent worker training programs function 
as more of a reactive force rather than a proactive force. In order to 
keep and attract high quality employers in our State, we need highly 
trained workers. On the other side of this same coin, we need to ensure 
that employers are doing their fair share in training workers to keep 
up with the changing workplace, as well as contributing to the cost of 
this ongoing training.
    My question is twofold.

    Question. First, as we look ahead to this reauthorization process, 
do you see a need to bring specific set-aside incumbent worker training 
to the local level? Second, can any of you offer examples from your 
States or local entities that have done a good job of incorporating 
incumbent worker training into workforce activities that is fair to 
employees, employers, and local investment?
    Answer. My work is focused on the State Vocational Rehabilitation 
System and I am not as familiar with the incumbent worker training 
programs through WIA so I will not attempt to provide comment. Thank 
you.
                           senator whitehouse
    Question. We have heard a great deal about the 47 Federal workforce 
development programs cited by the 2011 Government Accountability Office 
study. Despite what some of my colleagues say, GAO did not recommend 
that workforce training programs be eliminated. It recommended that 
State administrative bureaucracies be consolidated. Reducing 
administrative overlap would lead to a more efficient system with more 
resources going to the people who need them. Please indicate where you 
believe specific workforce training programs may be appropriate for 
certain populations such as veterans, Native Americans, youth, ex-
offenders, migrant and seasonal farmworkers, people with disabilities, 
dislocated workers, or other such categories of trainee? Do you think 
that consolidating State administrative bureaucracies is consistent 
with the goal of better serving these specific populations?
    Answer. In Iowa, Governor Branstad has established four primary 
goals: (1) 200,000 new jobs (2) 15 percent reduction in government (3) 
25 percent increase in family incomes and (4) #1 schools in the Nation. 
Reducing administrative overlap will create system efficiencies and 
lead to a more efficient service delivery system. Iowa Vocational 
Rehabilitation has been actively partnering with our Department of 
Administrative Services on human resource issues, with our information 
technology department on effective strategies for system security, and 
with seven other State department directors establishing a Memorandum 
of Agreement to strengthen employment services for Iowans with 
disabilities, improve customer service and break-down artificial 
barriers. This focuses on collaboration and coordination of career and 
employment services which occur among the partners and their local 
offices in support of integrated, community-based employment.
    There are numerous examples of coordinated service delivery to 
minimize duplication and maximize resources and staff capacity. An 
example is a self-employment program which assists eligible individuals 
with disabilities in seeking appropriate opportunities for 
entrepreneurship. Efforts are coordinated among State/Federal agencies 
such as the Iowa Department for the Blind, Iowa Vocational 
Rehabilitation and the Department of Veterans Affairs Vocational 
Rehabilitation and Education Program. Iowa Vocational Rehabilitation is 
working closely with our America Job Centers in referring individuals 
that are actively participating in workforce center services. Many 
individual jobseekers, with significant disabilities, require more 
intensive services to obtain employment and need assistance beyond the 
core services offered by the America Job Centers requiring unique and 
specific disability-related individual services to address their unique 
combination of skill sets, interests and barriers. Therefore, it is 
essential that specific workforce training programs are in constant 
communication and coordination of service delivery methods to ensure 
efficient use of the resources available.
    Reauthorization of the Workforce Investment Act is long overdue and 
such a reauthorization would provide an opportunity to gain 
efficiencies through more streamlined reporting requirements across 
programs and increase flexibilities for State agencies to better 
leverage limited resources. In a dynamic global economy authorizing 
legislation must be current and States must have the flexibilities to 
best meet current demands.

     Response by Steven Partridge to Questions of Senator Murray, 
                Senator Baldwin, and Senator Whitehouse

                             senator murray
    Question 1. Mr. Partridge, we talk a lot here about aligning 
workforce development, economic development, and education to maximize 
their impact in regions across the Nation. What is the role of the 
Workforce Board that is making this happen, and how has your board done 
this on the local level?
    Answer 1. Aligning our educational institutions with local job 
market realities is critical if we are not only to reduce the drop-out 
rate, but also ensure America continues to generate enough high-skilled 
workers to compete in today's global economy. The local workforce 
boards should be playing a key role in helping educators understand the 
types of jobs their local communities need filled and the skills 
required to be successful in those growing occupations (career 
ladders). The boards should also be working with partners to provide 
teachers the tools to link curriculum to local, real-world examples. 
Charlotte Works has created several tools that we are expanding this 
year, such new, interactive career ladders designed to appeal to young 
people. Also starting this fall, we will launch a new work-based 
learning portal to connect local employers to our school system so 
youth will have even more opportunities to gain real work experience. 
In addition, we plan to develop a new education program designed to 
help teachers in the classroom connect lesson plans to local skill 
needs.

    Question 2. Mr. Partridge, one thing we agree on in this committee 
is the importance of a business-led, locally delivered workforce 
system. Can you tell me why this structure is important in your area?
    Answer 2. Since so much of our core mission is getting jobseekers 
quickly back to work, the tools and services we provide are often 
vetted by our board members to ensure they are truly preparing 
jobseekers to meet sector-wide standards. For Charlotte Works 
specifically, we use more than 185 volunteers that actually serve as 
instructors for our workshops; board members often refer these experts 
to us. In addition, my board members have high service-level 
expectations, so they are always pushing to raise the bar on 
organizational performance and outcomes far in excess of what USDOL 
would require or track.

    Question 3. Mr. Partridge and Mr. Rosenberg, I know that the 
Workforce Investment Act requires you to have a ``dual customer'' 
approach. Can you tell me how your workforce board handles both roles 
and in particular, how do you work in partnership with targeted 
industries?
    Answer 3. Although we have two distinct customers, we cannot 
succeed without fully engaging local employers. What we learn from each 
employer interaction is quickly turned into local labor market 
intelligence for job-seekers. Helping job-seekers understand sector-
focused occupational needs, soft-skill requirements, individual 
employer culture; or even providing realistic timelines for employers 
that are hiring are invaluable resources. Our board focuses on several 
key sectors that align with our local economic development efforts such 
as advanced manufacturing, energy, financial services, information 
technology and healthcare. In fact, more than 41 percent of our 
business service team's time is spent cultivating and supporting our 
targeted sectors.

    Question 4. Of great concern to me in the last few years have been 
significant funding cuts to the workforce system, even before 
sequestration. Obviously, funding under WIA is not enough to meet all 
of the needs of employers and jobseekers. Let me ask each of you, how 
do you leverage funding in this challenging fiscal environment and what 
are the other key funds that you utilize?
    Answer 4. Our board of directors shares your concern and has taken 
several proactive steps to deal with funding challenges. First is the 
use of our volunteer program. We use more than 185 trained volunteers 
who are subject matter experts who lead workshops, facilitate job teams 
and provide coaching to thousands of job-seekers. We calculate that by 
using volunteers, Charlotte Works saves more than $200,000 per year. 
Second is the use of private-sector donations (often in-kind services 
or products). Last year, we received a $150,000 software grant from 
Microsoft Corporation that provided us with software for our 30 remote-
access sites located around the Charlotte area. In 2010, Bank of 
America provided free space for more than 2 years in one of their 
office towers for use by displaced professionals. Finally, our board 
has spent the past year studying other creative ways to fund workforce 
programming including creating a staffing firm targeting our high-
growth sectors. Although no decision has been made yet, we continue to 
look for new ways to grow local resources.
                            senator baldwin
    This question is for any of the witnesses and relates to incumbent 
working training, or efforts to help folks who currently have jobs get 
the professional development they need to climb the ladder in their 
place of employment. As you know, under WIA, incumbent worker training 
is only a part of the allowed statewide activities--and not the local 
activities. Furthermore, it seems that incumbent worker training is not 
a priority in many areas as it is only an allowable use of State WIA 
funds, and only 15 percent of State funds can be used for Adult 
Activities. I have heard from stakeholders in my home State of 
Wisconsin that they feel like the current incumbent worker training 
programs function as more of a reactive force rather than a proactive 
force. In order to keep and attract high quality employers in our 
State, we need highly trained workers. On the other side of this same 
coin, we need to ensure that employers are doing their fair share in 
training workers to keep up with the changing workplace, as well as 
contributing to the cost of this ongoing training. My question is 
twofold.

    Question 1. First, as we look ahead to this reauthorization 
process, do you see a need to bring specific set-aside incumbent worker 
training to the local level?
    Answer 1. I would support using local formula dollars to train 
incumbent workers.

    Question 2. Second, can any of you offer examples from your States 
or local entities that have done a good job of incorporating incumbent 
worker training into workforce activities that is fair to employees, 
employers, and local investment?
    This question is for Mr. Partridge, who spoke to data collection/
sharing in his written testimony, or any of the witnesses who would 
like to weigh in.
    Answer 2. We have some pretty incredible efforts underway at the 
local WIBs in my State to assist in offender re-entry technology and 
career education. Manufacturing can be an area in which a felony 
conviction record will not hold you back--and it makes pretty good 
sense to me to start training offenders while they're serving their 
time so they can be ready to work when released.
    Just one quick example--our Bay Area WIB runs their Computer 
Integrated Mobile Manufacturing Lab--imagine a large trailer equipped 
with a training lab and a dozen workstations. They've been able to 
drive that mobile lab to the Oshkosh prison and Taycheedah women's 
prison. Because of that successful effort, the Wisconsin Department of 
Corrections invested $100,000 in a second mobile lab that was purchased 
by Lakeshore Technical College. This spring, they had eight inmates at 
Oshkosh and nine women at Taycheedah earn 6 credits in manufacturing 
with the LTC lab.
    Here's my concern: in preparation for this hearing, my staff 
contacted the Wisconsin Department of Corrections to collect data on 
WIA programming and outcomes for the ex-offender subpopulation in 
Wisconsin. They were told this data does not exist--there's no way to 
provide an accurate picture of formerly incarcerated individuals who 
now have jobs.

    Question 3. Mr. Partridge, could you or any of the other panelists 
speak to data collection concerns in WIA? I realize accurate data 
collection around workforce programming and retention rates is a 
challenge. But how can we improve the ability of States to capture this 
information--and thus hopefully improve outcomes?
    Answer 3. I share your concern and think any reauthorization 
efforts need to address the data collection efforts/barriers. Without 
accurate data, local boards cannot get timely and accurate information 
to make informed management decisions to expand successful programs or 
shut down ineffective ones. It also inhibits our efforts to provide 
policymakers timely data during annual budget discussions. I am happy 
to work with Senate committee staff to identify specific action 
language to target Federal and State agencies where data-sharing is 
lacking.
                           senator whitehouse
    Question. We have heard a great deal about the 47 Federal workforce 
development programs cited by the 2011 Government Accountability Office 
study. Despite what some of my colleagues say, GAO did not recommend 
that workforce training programs be eliminated. It recommended that 
State administrative bureaucracies be consolidated. Reducing 
administrative overlap would lead to a more efficient system with more 
resources going to the people who need them. Please indicate where you 
believe specific workforce training programs may be appropriate for 
certain populations such as veterans, Native Americans, youth, ex-
offenders, migrant and seasonal farmworkers, people with disabilities, 
dislocated workers, or other such categories of trainee? Do you think 
that consolidating State administrative bureaucracies is consistent 
with the goal of better serving these specific populations?
    Answer. I do not agree with wholesale consolidation, but do feel 
that consolidation makes sense in specific functional areas such as 
business outreach. Charlotte Works has been leading an effort to 
coordinate employer outreach efforts within our area. Almost every 
workforce program does some outreach to individual employers in order 
to help place job-seekers or to seek internships/work experiences for 
at-risk youth. If these efforts were coordinated and truly integrated, 
then the number of employers served and overall job placements would 
increase.

     Response by Alan N. Rosenberg to Questions of Senator Murray, 
                Senator Baldwin, and Senator Whitehouse

                             senator murray
    Mr. Rosenberg, as a major health care employer, you are well aware 
of the challenges of developing, finding, and keeping the skilled 
workers you require.
    Question 1a. How do you think about both short- and long-term 
creation of the workforce you need?
    Answer 1a. In the short term, we are focused on developing a career 
ladder that will help our employees at all levels improve their job 
skills and income levels. Given that about 60 percent of our employees 
live in Philadelphia, many in low-income neighborhoods, we feel it is 
our responsibility to help improve the economic vitality of the 
communities we serve while providing good jobs and a positive work 
environment for our employees. In the longer term, as we respond to 
changes in health care delivery under the Affordable Care Act, we are 
working to develop a front-line workforce of health workers who can 
work in the community with patients to help ensure access to care and 
adherence to hospital discharge instructions and physician directions 
to help reduce costs and improve population health.

    Question 1b. What role do partnerships, including labor-management 
partnerships, play in improving the strength of your health care 
workforce?
    Answer 1b. The labor-management partnership that we have had with 
the District Council 1199C Training Fund has been a major component of 
our workforce strategy for nearly 40 years. Over the past decade we 
were able to work with the Training Fund to ensure that our front-line 
workers and community members have access to programs to obtain GEDs, 
pre-college and pre-nursing/allied health classes, credentialed 
occupational training, and to pursue college study. Also, as hospitals 
of the Temple University Health System were re-configured over the past 
decade, the Training Fund has been a critical part of our efforts to 
ensure that employees could receive appropriate training to enable them 
to assume new positions either within our hospitals or elsewhere in 
Philadelphia's healthcare delivery industry.

    Mr. Rosenberg, as an employer you face financial and programmatic 
challenges constantly. One issue being examined by this committee is 
how best to make programmatic and investment decisions the right way, 
rather than by making wholesale and indiscriminant cuts without 
reference to performance and value. Your thoughts on the right way to 
make such cuts would be appreciated. So let me ask you:
    Question 2a. When you have to make funding decisions, how do you 
determine what needs to be cut?
    Answer 2a. As both an employer and a critical provider of health 
services in one of America's most vulnerable urban areas, we must 
balance the effect of reduced reimbursements on hospitals, the return 
on investments in specific clinical programs, and the impact of 
reductions on the health and economic integrity of our community.

    Question 2b.  Do you utilize empirical data and programmatic 
evaluations before making such decisions?
    Answer 2b. Yes.

    Mr. Partridge and Mr. Rosenberg, I know that the Workforce 
Investment Act requires you to have a ``dual customer'' approach.
    Question 3. Can you tell me how your workforce board handles both 
roles and in particular, how do you work in partnership with targeted 
industries?
    Answer 3. As a member of the Philadelphia Works board, the local 
workforce investment board, I have seen tremendous progress in how the 
workforce system serves both jobseekers and employers. We understand 
that employers drive the workforce system, based on their needs for 
job-ready and skilled workers. This guides how we invest WIA training 
funds in particular.

    <bullet> For example, using data from Philadelphia's economic 
development agencies, online job openings and other sources, we have 
identified advanced manufacturing and healthcare as among the industry 
clusters in which we invest WIA on-the-job training and out-of-school 
youth funds.
    <bullet> We also partner with targeted industries by staffing and 
supporting six industry sector-based partnerships that bring employers 
together to identify common training and skill needs for both 
incumbents and new workers.
    <bullet> Large employers like Amerihealth/Caritas have partnered 
with our one-stop career centers to create customized pre-hire 
workshops and screening processes to prepare jobseekers for one of 
three specific jobs. They have hired 63 jobseekers in the past 2 years 
as a result. Now we are creating ``Jobs Compacts'' with employers who 
agree to work with Philadelphia's one-stop system to hire for key 
entry-level positions.
    <bullet> In advanced manufacturing, employers have identified the 
need for new talent pipelines. In response, we have funded Career and 
Technical Academies to create summer internships, which can turn into 
year-round internships to introduce and prepare young people for 
skilled positions.

    Of great concern to me in the last few years have been significant 
funding cuts to the workforce system, even before sequestration. 
Obviously, funding under WIA is not enough to meet all of the needs of 
employers and jobseekers.
    Question 4. Let me ask each of you, how do you leverage funding in 
this challenging fiscal environment and what are the other key funds 
that you utilize?
    Answer 4. It has been increasingly difficult to provide services 
with reduced funding and unprecedented demand. Wherever possible, 
Philadelphia Works leverages additional funds, but they are often also 
Federal funds that have been reduced as well. Leveraged funding can 
never make up for the Federal cuts and sequestration. For youth 
workforce development, we leverage Federal TANF and Health and Human 
Services funds, along with private foundation grants. Private employers 
provide significant funding for our summer jobs program. For adults we 
leverage funds by aligning our workforce readiness services with the 
community college Federal TAACCCT grant that provides free training for 
in-demand occupations, Federal National Emergency Grant funds for 
training our large displaced population who lost their jobs after the 
recession, limited State funds together with National Fund for 
Workforce Solutions grants for managing industry partnerships and 
funding incumbent worker training. Other Federal dollars support our 
work like H1B funds made available through innovation projects, Pell 
grants, Community Development Block Grant funding and other workforce 
dollars made available for ex-offender re-entry, veterans, and the 
homeless.
                            senator baldwin
    This question is for any of the witnesses and relates to incumbent 
working training, or efforts to help folks who currently have jobs get 
the professional development they need to climb the ladder in their 
place of employment.
    As you know, under WIA, incumbent worker training is only a part of 
the allowed statewide activities--and not the local activities. 
Furthermore, it seems that incumbent worker training is not a priority 
in many areas as it is only an allowable use of State WIA funds, and 
only 15 percent of State funds can be used for Adult Activities.
    I have heard from stakeholders in my home State of Wisconsin that 
they feel like the current incumbent worker training programs function 
as more of a reactive force rather than a proactive force. In order to 
keep and attract high quality employers in our State, we need highly 
trained workers. On the other side of this same coin, we need to ensure 
that employers are doing their fair share in training workers to keep 
up with the changing workplace, as well as contributing to the cost of 
this ongoing training.
    My question is twofold.

    Question 1. First, as we look ahead to this reauthorization 
process, do you see a need to bring specific set-aside incumbent worker 
training to the local level?
    Answer 1. Yes, we do see a need for a set-aside for incumbent 
worker training at the local level, as long as it expands rather than 
reduces funds available for dislocated workers and adults. A set-aside 
would provide an ongoing source of funding, rather than relying on a 
State waiver system or annual State appropriations. It would allow us 
to expand our incumbent worker training for small- and medium-sized 
employers who need extra help to upgrade skills for their incumbent 
workers, often leading to promotions so they can then hire new workers 
from the local one-stop system to fill those vacated entry-level 
positions. Incumbent worker training also allows the workforce system 
to establish positive relationships with companies who then choose to 
use the local workforce system to hire new employees. Companies 
including Computer Components, Aker, PTR Baler, Global Packaging and 
Hyundai Rotem now use the one-stop system as a first source for hiring 
because the workforce system helped them with incumbent worker training 
first.

    Question 2. Second, can any of you offer examples from your States 
or local entities that have done a good job of incorporating incumbent 
worker training into workforce activities that is fair to employees, 
employers, and local investment?
    Answer 2. At the regional level, Philadelphia Works has worked with 
Boeing to provide incumbent worker training through sector-based 
partnership funds, to up-skill and promote workers, then backfill those 
positions by hiring through one-stop centers. This practice created 22 
new jobs. In another instance, we used workforce funds to re-train 
Hyundai Rotem workers to prevent an impending layoff when a contract 
for electric-powered trains ended and a diesel-powered train contract 
began.
                           senator whitehouse
    Question. We have heard a great deal about the 47 Federal workforce 
development programs cited by the 2011 Government Accountability Office 
study. Despite what some of my colleagues say, GAO did not recommend 
that workforce training programs be eliminated. It recommended that 
State administrative bureaucracies be consolidated. Reducing 
administrative overlap would lead to a more efficient system with more 
resources going to the people who need them. Please indicate where you 
believe specific workforce training programs may be appropriate for 
certain populations such as veterans, Native Americans, youth, ex-
offenders, migrant and seasonal farmworkers, people with disabilities, 
dislocated workers, or other such categories of trainee? Do you think 
that consolidating State administrative bureaucracies is consistent 
with the goal of better serving these specific populations?
    Answer. While as an employer in Philadelphia's healthcare industry, 
I do not have sufficient knowledge of the structure of the State 
administrative bureaucracy to offer an opinion on whether or how it 
should be streamlined, as a Board member of Philadelphia Works my 
observation is that the current system appears to generally serve 
targeted groups well, with staff specializing in the particular needs 
of each group. It also promotes cooperation and prevents unnecessary 
competition for funding.

     Response by Beverly E. Smith to Questions of Senator Murray, 
                Senator Baldwin, and Senator Whitehouse

                             senator murray
    Question 1. Ms. Smith, a major focus of our bill is helping develop 
strong career pathways for jobseekers. What sort of role does adult 
education play in this effort in Georgia and what should we be doing at 
the Federal level to help accelerate this effort?
    Answer 1. Georgia is an Accelerating Opportunity (AO) State and has 
been involved in developing career pathways for our adult education 
students for some time. In fact, we have made it a requirement that all 
of our local adult education programs have ``transitions coordinators'' 
on staff to ensure that all of our students (regardless of educational 
level when they begin with us) are aware that there are career and 
college options for them once they receive their GED and, in some 
cases, while they are still in the process of getting that core 
credential. We have had great success with the program and find this 
group of students to be highly motivated. They excel in the classroom 
so well that they tend to bypass developmental education (remedial) 
college courses scoring well enough on entrance exams to go directly 
into first year college level classes.
    In regard to Federal support, changes in the ``ability to benefit'' 
guideline to allow students without a GED to be dually enrolled in 
adult education classes and college classes would be of great help to 
these students for whom it has been nationally acknowledged have a 
track record of success in college and careers. Because Georgia 
citizens cannot enroll in college in Georgia until they have attained 
their GED, our students do not qualify for any Federal aid (i.e., the 
Pell grant). With the change in the guidelines for ``ability to 
benefit'' they cannot receive financial aid. We scramble to find donors 
who will help pay their college tuition when they are dually enrolled 
and still working to complete their GED.

    Ms. Smith, both in 2011 and in this Congress we are examining the 
use of cross title performance measures in our bill to provide a better 
sense of how WIA programs are assisting people in need.
    Question 2. How should adult education outcomes be measured? Is 
academic progression enough or should we also be looking to other 
outcomes as well?
    Answer 2. First, I applaud the cross title measures. Since 1998, 
adult education has had job attainment/retention, transition to post-
secondary, and educational gains as performance measures. High school 
completion or equivalent is a significant benchmark in itself and 
should be counted as such. However, title I adult programs only had job 
placement--not educational gains as a measure of success. As a result 
there was little incentive for title I to collaborate with title II 
except on job placement.
    The most important connection with the workforce unit is for them 
to send their clients for appropriate training and to provide for wrap-
around services. The services we can provide for adults without GED 
together can be game changers for the unemployed and the under-
employed. Both academic progression and completion of GED should, at a 
minimum, be two of the outcomes for Adult Education.
    Second, the adult education State directors as a group supported 
the provisions in the 2012 Senate bill regarding cross title 
performance measures. I copied the recommendation below from the 
document we sent to your staff last week:

    <bullet> (V) the percentage and number of program participants who, 
during a program year--
      <bullet> (aa) are in an education or training program that leads 
to a recognized post-secondary credential, including a registered 
apprenticeship or on-the-job training program, a regular secondary 
school diploma or its recognized equivalent, or unsubsidized 
employment; and
      <bullet> (bb) are achieving measurable basic skill gains toward 
such a credential or employment.

    Our concern is that the least-educated, most-in-need adults not be 
neglected by focusing on high-demand jobs and transition to post-
secondary. For upper level students, we absolutely want to ensure they 
transition to post-secondary, receive certifications and qualify for 
high-demand jobs. However, we have so many adults who need to improve 
their foundation skills to qualify for either.
    Third, be assured, that even on the lowest levels of learning, we 
can infuse careers into our curriculum in order to prepare these adults 
for an on-ramp to a career pathway. We do this by the following:

    <bullet> Approaching reading, math, English and writing skills in 
contexts of the high-demand jobs in the service area,
    <bullet> Integrating work readiness skills (soft skills--work 
ethics, problem solving, critical thinking, etc.,) into our learning 
plans, and,
    <bullet> Integrating career awareness, exploration and planning.

    We will teach math and root words and prefixes anyway; why not 
teach them in the context of the high-demand jobs in the local service 
area.

    Question 3. You also mention that the rest of the workforce system 
should be equally accountable. Can you talk about that a bit more?
    Answer 3. As I mentioned above, Congress can stimulate 
collaboration between titles with some of the same cross-title 
performance measures. If we are all accountable for the same measures 
in areas where we should have mutual goals, we need to work and be 
rewarded as a partnership.
    Ensuring the enrollment of the unemployed who do not have a high 
school diploma or its equivalency in our federally funded adult 
education programs should be a mutual goal. Our adult education 
programs should be the ``go-to'' for basics skills training. In 
addition, entering and retaining employment should also continue as 
mutual goals. Academic preparation and teacher effectiveness, not job 
placement, is our core business . . . but it is the area of expertise 
of our title I partner. For example, Adult Education's role in the 
partnership is to prepare adults academically to obtain a high school 
equivalency credential; to prepare them to be college- and career-
ready; and to transition them to our workforce partners whose roles 
include job placement and enrollment in workforce training and post-
secondary programs.
    One of our greatest concerns is that, upon success is reaching goal 
attainment, the current law gives States the ability to make a decision 
about how the incentive award is spent rather than a requirement that 
the funds either be awarded to support a joint project or be equally 
divided among workforce development and adult education. In some cases, 
where States received an incentive award, the entire incentive award 
went to workforce development while adult education, whose funds 
continue to dwindle, received none of the award they work so hard to 
win. The ability for one partner (between workforce development and 
adult education) to not share in a mutually earned award should not be 
an option; especially since the Office of Vocational and Adult 
Education (OVAE) is the sole contributor for the current incentive 
award program.
    In regard to incentive awards, and because not all measures are the 
same, another option is that each partner be held accountable for 
reaching their goal and be eligible to receive an incentive award from 
dollars set aside by their agency.

    Question 4. Of great concern to me in the last few years have been 
significant funding cuts to the workforce system, even before 
sequestration. Obviously, funding under WIA is not enough to meet all 
of the needs of employers and jobseekers. Let me ask each of you, how 
do you leverage funding in this challenging fiscal environment and what 
are the other key funds that you utilize?
    Answer 4. I have the same concern and we have tried to be creative 
in finding additional dollars to support our program. For example, we 
have local programs called Certified Literate Community Program (CLCP) 
who are local non-profits that sponsor family literacy programs as well 
as provide support services, teachers and volunteer tutoring for our 
students. We also utilize local foundations and corporate sponsors 
(like Dollar General) who provide grants to many of our local sub-
recipient providers. While these local donors are helpful and provide 
us with additional resources, we are woefully underfunded to meet the 
needs of the 1.2 million citizens in Georgia who do not have a high 
school education. As a result we can only serve about 70,000 students 
each year.

    Question 5. Ms. Smith, one concern some of us have had is that we 
don't have enough research into adult education and literacy issues and 
solutions. We have been considering ways to develop a broader range of 
programmatic expertise and best practices in adult literacy 
programming. Do you believe such a repository of information would be 
of assistance to the adult literacy community? And what specifically 
would be of value to you and other States?
    Answer 5. Obviously more applied research into adult education and 
literacy issues and solutions would be helpful to States. A repository 
of best practices in program administration and classroom/online 
instruction would be great for the field. We need the information based 
upon what really works given the large number of part-time teachers. We 
need academic rather than theoretical research.
    Adult education suffered greatly with (1) the loss of our research 
center at the National Center for the Study of Adult Learning and 
Literacy (NCSALL) and (2) the National Institute for Literacy (NIFL). 
The Institute of Educational Sciences (IES), as the research arm of the 
U.S. Department of Education, has adult education in its charge but 
rarely do they fund more than one project. As a result we are a complex 
education system with no research.
    Your draft has provisions for a new national institute which is a 
move in the right direction. Last year the adult education State 
directors proposed the addition of a research function to such a 
national institute. I think such an institute with a research function 
would fill the void that you have identified. As a member of the 
executive committee for the National Council of State Directors of 
Adult Education I would be happy to direct you to that proposal.
                            senator baldwin
    This question is for any of the witnesses and relates to incumbent 
working training, or efforts to help folks who currently have jobs get 
the professional development they need to climb the ladder in their 
place of employment.
    As you know, under WIA, incumbent worker training is only a part of 
the allowed statewide activities--and not the local activities. 
Furthermore, it seems that incumbent worker training is not a priority 
in many areas as it is only an allowable use of State WIA funds, and 
only 15 percent of State funds can be used for Adult Activities.
    I have heard from stakeholders in my home State of Wisconsin that 
they feel like the current incumbent worker training programs function 
as more of a reactive force rather than a proactive force. In order to 
keep and attract high quality employers in our State, we need highly 
trained workers. On the other side of this same coin, we need to ensure 
that employers are doing their fair share in training workers to keep 
up with the changing workplace, as well as contributing to the cost of 
this ongoing training.
    My question is twofold:

    Question. First, as we look ahead to this reauthorization process, 
do you see a need to bring specific set-aside incumbent worker training 
to the local level?
    Second, can any of you offer examples from your States or local 
entities that have done a good job of incorporating incumbent worker 
training into workforce activities that is fair to employees, 
employers, and local investment?
    Answer. In the 1990s, my colleagues tell me adult education 
supported hundreds of ``workplace education'' programs for incumbent 
workers. As computers and hydraulics moved into the workplace replacing 
the ``lift and put'' jobs, employers wanted to retain valuable, loyal 
employees by upgrading their skills with programs in their plants. They 
often contracted with adult education programs to provide those 
services.
    Many of these employees were high school graduates but had, for 
example, a 1978 education that did not qualify them for the new 
workplace. In 2013, that is still the case.
    Around 2000, the Office of Vocational and Adult Education put a 
provision in their reporting system that was a deterrent for States and 
local programs to provide workplace education programs. There was a 
conflict between their accountability measures and the short-term job-
related education inherent in workplace education programs.
    Finally, let me hasten to say that my colleagues and I are opposed 
to set-asides. One of the tenants of the 1998 WIA and the move to 
performance measures was for the Congress to limit set-asides and let 
the States identify and prioritize their own needs. There is so little 
funding for adult education and there are any number of special 
interest groups that want a set-aside for their population that once we 
open that door, we would be inundated.
                           senator whitehouse
    We have heard a great deal about the 47 Federal workforce 
development programs cited by the 2011 Government Accountability Office 
study. Despite what some of my colleagues say, GAO did not recommend 
that workforce training programs be eliminated. It recommended that 
State administrative bureaucracies be consolidated. Reducing 
administrative overlap would lead to a more efficient system with more 
resources going to the people who need them.
    Question. Please indicate where you believe specific workforce 
training programs may be appropriate for certain populations such as 
veterans, Native Americans, youth, ex-offenders, migrant and seasonal 
farmworkers, people with disabilities, dislocated workers, or other 
such categories of trainee?
    Do you think that consolidating State administrative bureaucracies 
is consistent with the goal of better serving these specific 
populations?
    Answer. First, please do not judge us by other WIA programs. Adult 
Education programs typically out-perform other WIA programs in meeting 
performance measures even though OVAE raises our standards every year 
with no increase in funding.
    While Adult Education's priority is to teach under-educated and 
under-prepared adults by improving math, reading, English and writing 
skills, we also contextualize our curriculum to include basic skills 
required for high-demand jobs in the local service areas. Generally 
speaking, specific workforce training for the population mentioned in 
your question falls under the purview of State WIBs. That being said, 
adult education is more than ready to provide basic skills training for 
any population to ensure their success in specific work skills training 
programs. In addition we are ready and able to dually enroll them in 
our Accelerating Opportunity initiative so that they get a high school 
equivalency credential and college certificates in preparation for 
employment high demand at the same time.
    Governors have made these decisions to best serve their States. The 
Governors have placed adult education State office in State departments 
of education in 27 States, in post-secondary/community colleges in 15 
States, and in departments of labor in 8 States. States know their 
needs and their governance structure varies. I would recommend leaving 
it to the Governors to decide.

    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                                   

      
</pre></body></html>
